<html>
<title> - PROTECTING OUR CHILDREN: CURRENT ISSUES IN CHILDREN'S PRODUCT SAFETY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  PROTECTING OUR CHILDREN: CURRENT ISSUES IN CHILDREN'S PRODUCT SAFETY

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2007

                               __________

                           Serial No. 110-44


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
41-686 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             J. DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       FRED UPTON, Michigan
BART GORDON, Tennessee               CLIFF STEARNS, Florida
BOBBY L. RUSH, Illinois              NATHAN DEAL, Georgia
ANNA G. ESHOO, California            ED WHITFIELD, Kentucky
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
ELIOT L. ENGEL, New York             JOHN SHIMKUS, Illinois
ALBERT R. WYNN, Maryland             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chairman                    Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

                 Bud Albright, Minority Staff Director

                                  (ii)
        Subcommittee on Commerce, Trade, and Consumer Protection

                   BOBBY L. RUSH, Illinois, Chairman
JAN SCHAKOWSKY, Illinois             CLIFF STEARNS, Florida,
    Vice Chairman                         Ranking Member
G.K. BUTTERFIELD, North Carolina     J. DENNIS HASTERT, Illinois
JOHN BARROW, Georgia                 ED WHITFIELD, Kentucky
BARON P. HILL, Indiana               CHARLES W. ``CHIP'' PICKERING, 
EDWARD J. MARKEY, Massachusetts          Mississippi
RICK BOUCHER, Virginia               VITO FOSSELLA, New York
EDOLPHUS TOWNS, New York             GEORGE RADANOVICH, California
DIANA DeGETTE, Colorado              JOSEPH R. PITTS, Pennsylvania
CHARLES A. GONZALEZ, Texas           MARY BONO, California
MIKE ROSS, Arkansas                  LEE TERRY, Nebraska
DARLENE HOOLEY, Oregon               SUE WILKINS MYRICK, North Carolina
ANTHONY D. WEINER, New York          MICHAEL C. BURGESS, Texas
JIM MATHESON, Utah                   MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana          JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
    officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     2
Hon John Barrow, a Representative in Congress from the State of 
  Georgia, opening statement.....................................     4
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     6
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     7
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     8
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, opening statement.................................     9
Hon. Baron P. Hill, a Representative in Congress from the State 
  of Indiana, opening statement..................................    10
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............    11
Hon. Jim Matheson, a Representative in Congress from the State of 
  Utah, opening statement........................................    12
Hon. Darlene Hooley, a Representative in Congress from the State 
  of Oregon, opening statement...................................    14
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, prepared statement....................    14
Hon. Tammy Baldwin, a Representative in Congress from the State 
  of Wisconsin, prepared statement...............................    15

                               Witnesses

Nancy A. Nord, Acting Chairman, U.S. Consumer Product Safety 
  Commission.....................................................    16
    Prepared statement...........................................    19
    Answers to submitted questions...............................   207
Alan Korn, director, public policy and general counsel, Safe Kids 
  Worldwide......................................................    52
    Prepared statement...........................................    55
Rachel Weintraub, director, product safety and senior counsel, 
  Consumer Federation of America.................................    70
    Prepared statement...........................................    72
    Answers to submitted questions...............................   226
Frederick B. Locker, general counsel Toy Industry Association; 
  Locker, Brainin and Greenberg, New York, NY....................    93
    Prepared statement...........................................    95
Marla Felcher. adjunct lecturer, public policy, Kennedy School of 
  Government, Harvard University.................................   105
    Prepared statement...........................................   107
    Answers to submitted questions...............................   149
James A. Thomas, president, ASTM International...................   111
    Prepared statement...........................................   113
Nancy Cowles, executive director, Kids in Danger.................   124
    Prepared statement...........................................   127

                           Submitted Material

Hon. Allyson Y. Schwartz, a Representative in Congress from the 
  Commonwealth of Pennsylvania, submitted statement..............   146
Thomas Moore, Commissioner, Consumer Product Safety Commission, 
  answers to submitted questions.................................   156


  PROTECTING OUR CHILDREN: CURRENT ISSUES IN CHILDREN'S PRODUCT SAFETY

                              ----------                              


                         TUESDAY, MAY 15, 2007

                House of Representatives,  
            Subcommittee on Commerce, Trade
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2123, Rayburn House Office Building, Hon. Bobby L. Rush 
(chairman) presiding.
    Present: Representatives Schakowsky, Barrow, Hill, Markey, 
Gonzalez, Hooley, Matheson, Dingell, Stearns, Fossella, 
Radanovich, Terry, Burgess, Blackburn.
    Also present: Representative Baldwin.
    Staff present: Judith Bailey, Christin Tamotsu Fjeld, 
Valerie Baron, Will Carty, and Matthew Johnson.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLIONOIS

    Mr. Rush. The subcommittee will come to order.
    I yield myself 5 minutes for an opening statement.
    The jurisdiction of the Subcommittee on Commerce, Trade and 
Consumer Protection is multifaceted and covers a broad area, 
but there is nothing more important than our mission to look 
out for our children's safety. If the Federal Government cannot 
deliver on this basic responsibility to help parents keep their 
children away from avoidable hazards and unsafe products, then 
we are not doing our job.
    I hold in my hand a two-part series that appeared in the 
Chicago Tribune on May 6 and May 7. The Tribune articles are 
disturbing, to say the least; and they depict the worst 
nightmare that any parent might have.
    A 20-month-old child, Kenny Sweet, Jr., swallowed numerous 
tiny but powerful magnets that fell out of a popular toy kit 
called Magnetix. Inside the toddler's stomach these magnets 
stuck together and cut a hole through his bowels. Unbeknownst 
to his parents, these tiny magnets were camouflaged in with the 
carpet, only to be found and swallowed by the young toddler. 
Kenny Sweet, Jr., died on Thanksgiving Day, 2005. He died of 
what was equivalent to a gunshot wound to the stomach.
    This child's death is tragic. What is even more infuriating 
is the possibility that Kenny's death was preventable. 
According to the Tribune articles, both the company that 
manufactures Magnetix, Rose Art, and the Consumer Product 
Safety Commission were notified of the loose magnets and 
possible dangers they posed to young children, but neither 
acted in a timely manner to prevent Kenny's death.
    What I want to take away from this hearing and what I want 
to understand is why it took the Chicago Tribune doing 
athorough investigative story on Magnetix to finally get this 
product off the shelves. This story makes clear that the toys 
were still in some stores as it went to press. And I want to 
know why the Rose Art Company and the CPSC did not take the 
necessary steps to protect our children.
    Ladies and gentlemen, I don't want to engage in a blame 
game, and I am not looking to initiate a consumer product 
witch-hunt. I fully appreciate and respect the efforts of the 
Consumer Product Safety Commission, and I am not attributing 
incompetence or negligence to their staff or to Acting Chairman 
Nord. The Commission did the best it could, given the resources 
they had. However, I do want to find out how the system broke 
down; and, more importantly, I want to find out how to repair 
the breach. From this hearing, I want to come away with an idea 
of what steps this subcommittee should take to ensure that 
something like this never happens again.
    Today's hearing is not just about the Magnetix case. This 
subcommittee will hear testimony of numerous witnesses and 
explore a broad range of children's product safety issues. Many 
Members of Congress, including members of this subcommittee and 
full committee, have specific bills and legislative priorities 
when it comes to children and product safety. This hearing will 
serve as a forum to discuss and to deliberate on those 
individual bills.
    I know my friend and colleague from Chicago, Ms. 
Schakowsky, the vice chairman of this subcommittee, has long 
been a champion of children's safety; and she has several 
proposals to strengthen and empower parents to protect their 
children.
    I am not naive enough to think that we can protect all 
children from all the dangers that lurk in the world, but I do 
know that the regulatory regime that we have set up under the 
CPSC must be improved. I hope the members of this subcommittee, 
both Republicans and Democrats, are willing to roll up their 
sleeves and join with me and make the necessary reforms to the 
Consumer Product Safety Commission so that the number of 
preventable future deaths are minimized.
    Kenny Sweet, Jr., should be alive today; and I would like 
to enter into the record by unanimous consent the two Chicago 
Tribune articles. The reporter, Patricia Callahan, should be 
commended for her tremendous work.
     With that, I recognize the ranking member of this 
subcommittee for 5 minutes for an opening statement.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning and thank you, Mr. Chairman. I 
applaud you for having this hearing.
    I think all of us are champions of children. I have raised 
three boys; and I realize how difficult it is sometimes to 
supervise them, particularly after Christmas when they are 
playing with all the new toys under the tree and the day goes 
on and they sometimes can get hurt. So we are all very 
sensitive and conscious of this, and I applaud the Chicago 
Tribune for their article.
    With that being said, I would like to also tell my 
colleagues that we need to focus more on child product safety 
issues and the effectiveness of the current regulation. This is 
an agency, my colleagues, that has been underfunded. This is an 
agency that still does not have a commissioner. It does not 
have a way to actually vote and provide a majority. And this is 
an agency that has regularly been operating with less money and 
doing twice as much work.
    So if you look at the history of this agency, considering 
the circumstances, it has been very successful. So I applaud 
Commissioner Nord and her predecessor for all that they did.
    But I am interested, obviously, as most of us are, to hear 
from the diverse panel of witnesses today about current 
concerns and what is working and what isn't working. But I also 
have to remind my colleagues that there are over 300,000 
complaints plus that comes into this agency every year. In this 
case, the Magnetix toy was manufactured in China; and, also, it 
was distributed out of Canada. So, obviously, when you go to 
look for standards, it is going to be difficult for us to 
enforce standards on China as well as Canada. But we can set 
standards and be sure that people comply, and if they don't it 
is against the law.
    We have other problems dealing with people who want to buy 
toys over the Internet. What are we going to do about that?
    And, third, what about innovations? Some of the new 
technology that is coming, including nanotechnology, that would 
create even more difficulty for the CPSC.
    This is a very important agency. Its task by statute is 
protecting the public against unreasonable risk of injuries 
associated with consumer products, it has jurisdiction over not 
one, not two but 15,000 kinds of consumer products used in and 
around the home. As I understand, the agency has a budget of 
about $63 million. Obviously, that is underfunded.
    So I agree with you, Mr. Chairman. This is an agency we 
need to strengthen, provide more money and get the next 
commissioner approved. It then could be much more effective in 
distributing information on dangerous products subject to 
recall and for providing important consumer education.
    Their hardest task is to determine whether there is a trend 
from one complaint, two complaints or 10 or 100 complaints, and 
is that trend so significant that they have to do something and 
implement it. And I imagine, when you consider you have over 
300,000 complaints, that is an arduous task.
    If an individual company is breaking the law and putting 
the public in danger, the Commission obviously should take 
action swiftly and decisively. Moreover, the job of the CPSC is 
to actively enforce the laws enacted by Congress. Thus, if the 
Commission believes that the Consumer Product Safety Act needs 
to be changed, we certainly welcome their suggestion today; and 
we are here to act.
    The U.S. toy and children's product industry is a large 
business, with many tens of billions of dollars in sales each 
year; and, in 2006, the CPSC initiated 94 product recalls of 
toys and children's products involving millions and millions of 
product units. Sadly, every year, however, there are a small 
number of toy-related deaths and hundreds of thousands of 
injuries. While I applaud the Commission's work in 
investigating product complaints and getting dangerous products 
off the market, the agency must remain ever diligent in 
pursuing its mission to protect the public.
    Mr. Chairman, with that, I would like to make the remaining 
portion of my opening statement part of the record; and I just 
would like to conclude.
    The number of children's products that are imported has 
grown dramatically, and the Commission should explore ways of 
enhancing its oversights. I hope Ms. Nord today will talk about 
that. But, by and large, American manufacturers of children's 
products adopt industry safety standards and are responsible 
corporate citizens, but imported products do not always abide 
by these standards, my colleagues. The Commission must work 
closely with industry standards setting organizations in 
general and with an international forum specifically to enhance 
the safety of imported products.
    I would like to thank Acting Chairman Nord for being here 
today and look forward to her report, and I would also like to 
thank the second panel of the witnesses.
    I thank you, Mr. Chairman.
    Mr. Rush. The Chair recognizes the gentleman from Georgia, 
Mr. Barrow.

  OPENING STATEMENT OF HON. JOHN BARROW, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Barrow. Thank you, Mr. Chairman.
    This is the first oversight hearing of this Commission, I 
understand, since 2004. This is the first step in a long 
overdue trip of a thousand miles that has been postponed for 
years now. It gives us an opportunity to take stock and to 
survey just what has been going on.
    I want to amplify what Mr. Stearns has said and put it in 
human terms. When it comes to Commission resources, we have 
gone from a high of a thousand people working for this agency 
at the beginning of the Reagan administration way back in 1981 
to just 400 people policing the consumer marketplace today in 
2007. The consumer marketplace has not become a safer place in 
the meantime.
    I would agree with the Commissioner's testimony that 
children are safer today than they would be but for the work of 
the Commission. But I think, in all fairness, we have to 
attribute that to the work of Commissions before us, certainly 
not to the work that is being undergone today.
    With globalization, with the marketplace being opened up to 
designers and manufacturers who are abroad, the traditional 
civil law tort system is less and less able to police the 
marketplace by making manufacturers and designers pay for the 
damage that they do. That is already a very imperfect weapon in 
the first place. Just to make manufacturers compensate folks 
for the harm that they do is hardly an effective deterrent. It 
should make them pay the full price of what they put into the 
stream of commerce.
    But with designers and manufacturers residing abroad today 
and with most States in this country and this Congress 
contemplating in passing vendor legislation, which I think 
wisely, on the whole, exempts mere distributors from the 
consequences of bad design and bad manufacturing, it becomes 
that much more important that we police the marketplace in the 
first place, not leave it to private attorneys general to try 
and make sure that those who do harm pay for the consequences 
of their bad design and their bad manufacturer. So, in a global 
marketplace, it becomes that much more important that the 
police on the beat be up to the job.
    And I don't think anybody can say that the world is as 
safe, the consumer marketplace is as safe as it needs to be if 
we have only 400 people policing the global marketplace, 
whereas we had a thousand people policing our own national 
domestic marketplace just 26 years ago.
    So something is wrong here. In terms of Commission powers, 
I think we have gotten pretty far off the beaten path. When the 
maximum penalty that the Commission can levy is a fine of $1.65 
million and that is a violation of a regulation, if there is a 
regulation on the books, seems to me that for many folks it is 
a whole lot easier to get forgiveness than it is to get 
permission. And it should not be easy to get forgiveness for 
killing our children or for putting consumers at risk. They 
should not get permission to do that that in the first place.
    In matters of legislative matters, it concerns me that the 
Commission is not being more proactive to deal with known 
defects, known hazards, known risks that can be eliminated in 
the ordinary course of business.
    Take the Pool and Safety Spa Act that Congresswoman Debbie 
Wasserman Schultz has made such a heroic effort in pushing 
through the last Congress. I am one of the co-sponsors of that 
bill in this Congress. Something that keeps children from being 
trapped and brain damaged or killed in a product as widely 
available as the backyard swimming pool should not be an 
option. Basic safety should not be an option in the marketplace 
that folks have to figure out and shop for. It should be 
something that they get as a matter of course in the commercial 
marketplace.
    I do not understand why the Commission does not take a more 
proactive stance and essentially require folks to do the right 
thing, rather than leaving it up to folks to find out that the 
products they purchased do not incorporate the basic safety in 
its design and manufacture. This is long overdue.
    I appreciate your coming here today, but, as I say, this 
Congress has a lot of catching up to do; and we need to begin 
by assessing the resources that you all have to bring to bear, 
the powers that you have to bring to bear in the marketplace 
and the necessary legislation that we need to take if y'all 
won't take the proper steps yourself.
    So, Mr. Chairman, with that, I will yield back.
    Mr. Rush. The Chair recognizes the gentleman from Texas, 
Mr. Burgess, for 5 minutes.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman.
    I will submit my written statement for the record so as not 
to take so much time.
    I want to make a couple comments, and I appreciate you 
holding this hearing today. I think one of the valuable 
exercise of these congressional hearings is to shine the bright 
spotlight, to use the bully pulpit, as you are doing today, Mr. 
Chairman, on an issue that, quite frankly, probably doesn't 
come to the attention of many people in this country.
    When I first became aware that we were having this hearing 
today, I thought there must be some mistake, that the danger 
from a swallowed magnet didn't seem to be that great. So I went 
to my usual sources on the Internet and checked it out with the 
New England Journal of Medicine and put ``ingested magnets'' in 
the search engine and found no matches. I went to one of my 
other Web sites that I frequently look at when posing questions 
of medical importance, and my good friends at MayoClinic.com or 
at the Mayo Clinic Web site also had no matches.
    But it was the Consumer Product Safety Commission that did 
show a match, and their press release from last month really 
highlights the danger from these toy sets and these magnets. 
And even going to Google, the company that sells the magnetic 
toy devices from the Toys ``R'' Us Web site does state clearly 
on the Web page that came up that it is recommended for 
children 6 years and up and does have a safety warning.
    Now this is not a black box warning like we might ask the 
FDA to do. But it does have a safety warning: This product 
contains small magnets. Small magnets can stick together across 
the intestines, causing serious infections and death. Seek 
immediate medical attention if magnets are swallowed, ingested 
or inhaled.
    I was a physician before coming to Congress; and, again, I 
don't think I was aware of the seriousness of the injury that 
could result from a swallowed magnet. Reading the stories in 
the Chicago Tribune was very moving, and I could only put 
myself in the position of perhaps a physician who might be the 
recipient of a child who presented with those symptoms in the 
middle of the night and not think about the involvement of a 
magnet that fell out of a toy manufactured in the People's 
Republic of China.
    So I am grateful for you doing this today, Mr. Chairman. I 
think it does help to expand the knowledge base for caregivers 
across the country, and I hope people are paying attention to 
the hearing we are having today.
    Sure, there are a lot of issues with the Consumer Product 
Safety Commission that need to be dealt with. There are a 
number of Federal agencies that haven't been authorized or are 
well past their expiration dates for reauthorization that, of 
course, we need to get to and we should get to. It is our 
obligation to get to. But I think in the broader context 
expanding the knowledge base in the country about the danger of 
these small magnets, which are much more powerful than the 
refrigerator magnets that we all grew up with, I think it is 
important to get that information out there to the general 
public. So I appreciate the chairman for holding the hearing.
    Mr. Rush. I want to thank the gentleman.
     The chair now recognizes the dean of the Congress, the 
chairman of the full committee, the gentleman from Michigan, 
Mr. Dingell, for 5 minutes.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Chairman Dingell. Mr. Chairman, thank you for recognizing 
me. I commend you for holding a very important hearing today.
    Our country's highest responsibility is to protect its 
children, and I am fearful that our country is falling short in 
this very important duty. It appears that we are tolerating way 
too many preventable deaths and injuries to America's children 
caused by defective, unsafe and hazardous consumer products. I 
fear that the regulatory system, which is critical, is also 
broken and in desperate need of serious reform.
    All of us are saddened and outraged by the consequence of 
these product failures. When we hear about such incidences 
occurring, we can ask, how can this ever have happened? 
Incidents such as children who die or are maimed simply because 
the parents put them to sleep in a crib, a product we all 
thought was designed to protect the children; swimming pools 
with dangerous drains that can entangle a child's hair and 
cause drowning; toys in children's jewelry made with high 
quantities of lead when we know that everything goes straight 
into the small child's mouth. We believe such tragedies are 
preventable.
    Hearings will explore the reasons why our children are so 
at risk. Among the questions I believe that should be asked 
are: do we need more exacting safety standards for children's 
products? Do we need stiffer penalties for violations of these 
standards? Do we need stricter and swifter law enforcement so 
that manufacturers know that we are dead serious about 
preventing dangerous products from reaching the marketplace? Do 
we need to improve the recall system so it effectively removes 
hazardous products from store shelves and also alerts those who 
have already purchased such products? Do we need more 
comprehensive educational programs so that families are better 
informed about products they buy for their children?
    And, finally, are serious improvements to the CPSC needed 
so that the agency can do a better job of protecting our 
children? Is the agency too small to carry out its 
responsibilities? Does it have enough money? What barriers 
stand in the way of its effectively regulating hazardous 
products?
    Mr. Chairman, like the other members of the committee, I 
look forward to working with you in answering these critical 
questions and determining what more needs to be done to protect 
our young people. This hearing starts us on a road towards 
fixing a system that appears to be broken and badly in need of 
repair. For the sake of our Nation's children, this committee 
and all of us must work with all deliberate speed to fix it so 
that our country fulfills this important and crucial 
responsibility.
    I thank you, Mr. Chairman; and I yield back the balance of 
my time.
    Mr. Rush. I want to thank the gentleman.
    The Chair recognizes the gentleman from Nebraska, Mr. 
Terry, for 5 minutes.
    Mr. Terry. Thank you, Mr. Chairman. I will waive my opening 
statement. Thank you.
    Mr. Rush. The Chair now recognizes the gentlelady from 
Tennessee, Mrs. Blackburn, for 5 minutes of testimony.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. I appreciate that.
    I want to welcome Ms. Nord and the guests, our witnesses, 
for the second panel.
    And, Mr. Chairman, I would like to take my time and express 
my disappointment in the manner in which the hearing was 
organized. I think all of us, especially those of us who are 
moms, are deeply concerned about children's products and the 
safety of children's products and the uses, the appropriate 
uses and education thereof. This committee has always worked on 
a bipartisan basis and worked on issues that affect the 
consumer on a bipartisan basis, and that spirit I think is 
critical to conducting the type of proper oversight that is 
necessary as we look at the issues under this committee's 
jurisdiction.
    Today's is no different. Yet it is hard for the members of 
the subcommittee to work together in that manner when they 
don't have access to the information, including testimony and 
the background memos, that will allow them to play a 
constructive role in this process. I don't know what the reason 
was for this not being distributed in a timely manner, but no 
documents were provided to my office, and I expect probably to 
the rest of my colleagues on this side of the dais, less than 
24 hours before the start of the hearing. They didn't get to my 
office until 4:15 yesterday afternoon.
    I would hope that on issues that are so important to our 
constituents and especially dealing with children that we would 
see that handled a bit differently in the future. We are all 
concerned about what is in the marketplace and the 
understanding of those products; and I hope that we will work 
in a bipartisan manner to address these issues, to deal with 
consumer safety, whether it is dealing with the way the 
consumer protection agency carries out its mission or whether 
it is dealing with some of the legislation that is before us.
    I thank you, Mr. Chairman; and I yield back.
    Mr. Rush. I want to inform the gentlelady from Tennessee 
that this Chair goes out of his way to include Republicans in 
all deliberations. We scheduled a meeting yesterday with the 
Republican ranking member.
    This Chair really takes it personally when he is accused of 
not being fair to the minority. I intend to be bipartisan. I 
conduct myself in a bipartisan manner. I conduct this 
subcommittee in a bipartisan manner. I think the gentlelady 
would have been well positioned to engage in this hearing if 
she had simply asked the question, when did the subcommittee 
get the materials in order to distribute? You can be assured 
that as soon as we got it, you got it; and that is the way we 
will conduct this hearing.
    Thank you.
    The Chair recognizes the gentlelady from Illinois, Ms. 
Schakowsky, for 5 minutes.

 OPENING STATEMENT OF HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Chairman Rush.
    I appreciate the spirit of bipartisanship that you have 
acknowledged and always carry out, and I thank the ranking 
member.
    Really, I am grateful for this hearing on an issue that I 
have worked on for a long time and now under your leadership is 
coming to light. I want to thank all our witnesses. Especially, 
I want to welcome Nancy Cowles from the advocacy group Kids in 
Danger, which is based in Chicago.
    Two days ago, we celebrated Mother's Day; and while many 
families were rejoicing for many others, Mother's Day is and 
always will be a day filled with sorrow and a reminder of their 
grief for a child lost to unsafe children's products.
    For example, Mother's Day will never be the same for Linda 
Ginzel, who lost her son Danny when a portable crib collapsed 
around his neck and strangled him. This year had to be 
especially tough because May 12, the day before Mother's Day, 
was the ninth anniversary of Danny's death. But even more 
disturbing is that four children died after Danny died from 
that same collapsed portable crib.
    Penny Sweet and her son Kenny Jr.'s story are chronicled in 
the Chicago Tribune series on children's products by Patricia 
Callahan. Kenny died after swallowing magnets from a Magnetix 
set. The magnets were so powerful that the ones he swallowed 
were connected to each other in layers of his intestines and 
set off an internal reaction which resulted in what one 
pediatrician described as a hidden, quote, gunshot wound, end 
quote. Not only must Mother's Day be emotionally taxing for 
Penny but so must be Thanksgiving Day, the day she lost Kenny 
to a toy.
    Since Kenny died, other children have had major surgery as 
a result of the same incident which she reported. Those two and 
many other mothers who lost their children went to and still go 
to other great lengths to protect their other children of harm. 
However, we fail them if we allow manufacturers to put unsafe 
products on the shelves and don't provide strong mechanism to 
get dangerous items off the shelves and out of homes.
    A Coalition for Consumer Rights survey in Illinois found 
that 75 percent of adults believe that the Government oversees 
pre-market testing for children's products. Seventy-nine 
percent believe that manufacturers are required to test the 
safety of those products before they are sold. For most 
products, neither is true. In fact, there are no mandatory 
safety standards for the majority of the children's products 
being sold today.
    The majority of the standards that are in place are 
voluntarily set by the industry that looks to make profits. 
They are also allowed to police themselves about whether their 
standards are enforced.
    So where is the Government? Where is the Consumer Product 
Safety Commission?
    I am looking at the testimony of Commissioner Nord, and it 
says that the Commission is tasked with the important mission 
of protecting the American public from unreasonable risk of 
injury and death associated with consumer products. It says, 
while the Commission and the staff work very hard to reduce 
injuries to consumers of any age, we pay particular attention 
to products used by vulnerable groups, especially children.
    But then you say, with a total nationwide staff of just 
over 400, an annual budget of just over $60 million, we simply 
can't be at all places at all times. That is true no matter how 
much money you have, that is for sure, but with the total 
compliance staff of approximately 150 you mentioned, so those 
who are actually dealing with compliance we are talking about 
even fewer. That is a concern as well as the cap on civil 
penalties of $1.825 million, which could be the cost of doing 
business for many companies.
    Additionally, the few mandatory and all the voluntary 
standards are of questionable significance because there are no 
testing requirements. What that means is that our children end 
up being the guinea pigs in potentially deadly experiments 
every time we bring a new product for them into our homes.
    Because I believe that we must do much more to protect 
children, I have introduced two bills, and there are many more 
offered by various Members of Congress, that would help prevent 
needless deaths and injuries of young children.
    H.R. 1698, the Infant and Toddler Durable Product Safety 
Act, would require that products are tested and have a stamp of 
approval; and, in honor of Linda's son, H.R. 1699, the Danny 
Keysar Child Product Safety Notification Act. These bills would 
help us protect infants and toddlers from dangerous products 
before they arrive on the shelves and after they end up in our 
homes. I am looking forward to your comments on those and hope 
for their quick passage.
    Thank you.
    Mr. Rush. The Chair recognizes the gentleman from Indiana, 
Mr. Hill, for 5 minutes.

 OPENING STATEMENT OF HON. BARON P. HILL, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Hill. Thank you, Mr. Chairman. Let me thank you for 
holding this hearing on protecting our children. It is an 
important hearing to have.
    There is an issue that has affected families across this 
country--and, Chairman Nord, I also thank you for being here as 
well.
    But there is an issue that has affected families across the 
country and has the potential to affect many more if this 
committee does not act, and that is accidental drowning of 
children. In 2004, there were 848 American casualties in Iraq. 
In that same year, 761 children ages 1 to 14 drowned in this 
country. It is hard to believe. Nearly as many children were 
lost in backyards and swimming pools as there were soldiers 
lost in the war zone.
    According to a report issued by Safe Kids Worldwide, my 
State of Indiana ranks 36th among the States for the safety of 
children. There has been improvement in my State. More can be 
done to protect Hoosiers. Unintentional drowning is the second 
leading cause of accidental death in Indiana. I don't know 
where it is countrywide, but, in Indiana, it is the second 
leading cause of death among children.
    There are two significant factors that increase the 
likelihood of drowning accidents. One is that young children 
wander too close to a body of water and fall in and, being 
unable to swim, they quickly sink to the bottom. The other 
problem is the powerful suction devices that regulate the 
contamination in pool water.
    Without a doubt, supervision is the first line of defense, 
parents must be responsible and watch their children at all 
times. As any parent can tell you, there are always moments 
when a child can wander away from a watchful eye and an 
accident can occur.
    One thing we can do is direct the Consumer Product Safety 
Commission to develop Federal anti-entrapment drain cover 
standards. Through innovation and appropriate standards, we can 
save families from having to endure these tragedies.
    In addition to addressing the drainage issue, we must 
educate individuals about the potential dangers of pools and 
spas. Furthermore, we can provide guidelines and incentives to 
encourage States to further the cause of drowning prevention.
    Congresswoman Wasserman Schultz has introduced the Pool and 
Spa Safety Act, which will address all of these issues. This 
piece of legislation, as I understand it, according to 
Congresswoman Wasserman Schultz, was passed by the Senate, 
passed by the House but never became law because we ran out of 
time. So this is really a moot issue.
    I think we are probably going to pass it again; and I hope, 
Chairman Nord, that you will lend your support for this 
important piece of legislation. As the summer months approach, 
there will be an unfortunate increase in incidences throughout 
the Nation. As we face this reality, I encourage parents to be 
vigilant in their supervision; and I encourage this committee 
to be vigilant in efforts to ensure that we work towards 
eliminating this tragedy.
    Again, Chairman Nord, I appreciate your attention here this 
morning. I hope we can do something about this very important 
piece of legislation that will reduce the number of drownings 
of children throughout this country.
    Thank you, Mr. Chairman.
    Mr. Rush. The Chair recognizes the gentleman from 
Massachusetts, Mr. Markey, for 5 minutes.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much.
    Today's hearing is particularly important in light of a 
series of recent reports about dangerous children's products, 
including Magnetix building sets, lunch boxes with linings 
containing high lead levels and baby bibs with unsafe levels of 
lead in the fabric. As the summer season approaches, we are 
also reminded today of the need for Federal oversight over 
amusement park rides at fixed sites around the country where 
millions of children and their families will visit in the 
coming months.
    The Consumer Product Safety Commission has an enormous 
responsibility to protect the public from unreasonable risk of 
serious injury or death of the more 15,000 consumer products 
under the agency's jurisdiction. With thousands of different 
product categories within this jurisdiction, the Commission 
faces significant challenges as it works to accomplish its 
mission.
    With a meager $63 million budget requested in fiscal year 
2008, only about 400 employees are statutory constraints and 
limit its effectiveness; and with the current lack of a quorum 
of commissioners, the CPSC has been unable to adequately 
perform many key functions. Unless it receives additional 
resources and adjustments to its enforcement and regulatory 
authorities, CPSC will no longer stand for Consumer Product 
Safety Commission but, instead, CPSC will stand for ``Cannot 
Properly Safeguard Children''.
    The activities and responsibilities of the Commission are 
too important to permit the continuation of the status quo. I 
am hopeful that with today's hearing and the important consumer 
product safety bills introduced by my colleagues we will begin 
the process of restoring the Commission's vitality.
    Later today, I will reintroduce the National Amusement Park 
Ride Safety Act to provide the Commission with the authority to 
enforce safety regulations at amusement rides located at fixed 
sites. My bill would give permission to Federal safety experts 
at the Consumer Product Safety Commission to gain access to 
accident sites to find out what happened and what needs to be 
fixed, give authority to the CPSC to issue and enforce a safety 
plan to prevent the same accident from recurring on the same 
ride, allow the CPSC to share what its investigators learn 
about safety problems nationwide so the same accident does not 
reoccur on the same rides in other States, and to provide the 
CPSC with $500,000 per fiscal year to carry out these new 
responsibilities.
    Mr. Chairman, I thank you for having this hearing. I think 
it is really an important service that we can provide to 
protect children in the country, and I yield back the balance 
of my time.
    Mr. Rush. The Chair recognizes the gentleman from Utah, Mr. 
Matheson, for 5 minutes.

  OPENING STATEMENT OF HON. JIM MATHESON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Matheson. Well, thank you, Mr. Chairman. I think it is 
important you are holding this hearing.
    In the hearing announcement, we talked about two issues we 
wanted to look at today. One is oversight of the Consumer 
Product Safety Commission. The other is to talk about issues of 
concern to members who legislate proposals for child safety. 
Both of those are very commendable to be covering today, and I 
want to associate myself with the opening comments of the 
chairman of the subcommittee and the chairman of the full 
committee in terms of highlighting the need for a more 
aggressive effort.
    We have heard from a number of the opening statements how 
the staffing levels have been reduced, we have heard about the 
budget numbers that have been reduced, but we have also heard 
about this new new phenomenon that has really affected us now. 
In a world of globalization and products coming from all over 
the world, how is this agency set up and structured and 
positioned to deal with that challenge in terms of ensuring 
consumer product safety?
    I think that is a very critical issue for us to try to 
address today and learn what the agency needs and if there are 
legislative fixes, and authority has to come from the 
legislative branch to give the agency the flexibility and the 
capability to address that new challenge.
    That probably didn't exist when I was a little boy. You 
mentioned, Chairman Nord, in your statement that in some ways 
kids are safer today. They are. I am sure the crib my son 
sleeps in now is much safer than the one I slept in. So we have 
made progress, but these new challenges we are talking about 
clearly mean we have got more to do.
    We also have an agency, as Mr. Markey pointed out, right 
now, that lacks a quorum. We have had an acting chairman since 
last July. I think it is very important this committee conduct 
this oversight right now, because I am not sure what is going 
on in this agency in the last few months. We don't even have a 
full-time quorum, we don't have a full-time chairman, the 
budget seems to be dropping, and I think there will be 
questions that ought to be answered.
    Now when it comes to specific issues, Mr. Hill gave a very 
good description of the need for the pool and spa safety 
legislation that was introduced by Congresswoman Wasserman 
Schultz, H.R. 1721. Accidental drowning is, in fact, the second 
leading cause of death nationally. In addition to what Mr. Hill 
stated in his own State, second leading cause of death of 
children ages 1 to 14.
    This is legislation of which I am personally a co-sponsor. 
I think that there is bipartisan support for this matter, and I 
would encourage that legislation to move quickly.
    Second issue, I know the American Academy of Pediatrics has 
raised the issue to this committee about lead content in toys. 
Toy jewelry, lunch boxes, In this world of globalization in 
particular we need to get our arms around that issue and figure 
out there are better ways to ensure safety for our kids.
    I also note that the American Academy of Pediatrics has 
raised the safety of all-terrain vehicles. These are vehicles 
that are used a lot in my home State. They are getting bigger 
and more powerful than they were over the past few years. 
Questions about children's operation of those vehicles ought to 
be asked, and we ought to look for opportunities to create a 
more safe situation for our kids. So, Mr. Chairman, again, I 
just want to cover both those issues.
    The need for oversight is clear. There is some important 
issues there that we need to face, and I applaud you for 
holding this hearing. I look forward to continuing the 
legislative effort through this Congress, and I will yield back 
my time.
    Mr. Rush. I want to thank the gentleman.
    The Chair now recognizes Ms. Hooley of Oregon for 5 
minutes.

 OPENING STATEMENT OF HON. DARLENE HOOLEY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Ms. Hooley. Thank you, Mr. Chairman. I will be very, very 
brief so we can get to Ms. Nord.
    First of all, thank you for being on the panel today; and, 
second of all, Mr. Chairman, thank you for holding this 
hearing.
    Although I am new to the Commerce, Trade and Consumer 
Protection Subcommittee, it was actually a child safety issue 
that first got me involved in politics. My son fell off the 
swing at the park and cracked open his head on the asphalt 
below the swings, and I was wondering why anyone would put a 
hard surface below playground equipment. Well, they did because 
they wanted to save a little money and thought that was a great 
idea.
    In the process of figuring out how that decision could have 
happened and making sure it didn't happen again, I ended up on 
the park board and eventually city council; and we did get rid 
of the asphalt under the playground equipment. It was one 
little incident.
     The Consumer Product Safety Commission is charged with the 
enormous task of protecting the public, including children, 
from unreasonable risk associated with consumer products. Right 
now, I understand you are trying to do this with 400 employees, 
in contrast to a thousand that you had in 1981; and yet we know 
there are many more products out there today that need to be 
tested. Clearly, this is not sufficient. You also seem to lack 
the statutory authority to protect consumers. I would look 
forward to hearing from both panels on how we should address 
these very serious problems. I also look forward to hearing 
concerns regarding specific products that are still on the 
shelves that could injure or even kill children.
    Again, I applaud the subcommittee for their diligent work 
on child safety and look forward to working on this issue with 
you, Mr. Chairman.
    Mr. Rush. I want to thank the gentlelady. Any other 
statements for the record may be included at this time.
    [The prepared statements follow:]

   Prepared Statement of Hon. G. K. Butterfield, a Representative in 
               Congress from the State of North Carolina

    The oversight hearing the Subcommittee on Commerce, Trade, 
and Consumer Protection held nearly a month ago on the Consumer 
Product Safety Commission shed light on the understaffed and 
underfunded conditions at the Commission. It was an extremely 
productive hearing that was successful in laying out a 
framework for potential improvements. The CPSC is charged with 
protecting the public from unreasonable risks of serious injury 
or death from thousands of consumer goods. Many of these 
products have a direct safety implication for children.
    While the safety of all Americans is of critical importance 
to lawmakers, the safety of children is of particular interest 
for this hearing. The Subcommittee on Commerce, Trade, and 
Consumer Protection will discuss several important legislative 
initiatives aimed at improving the consumer product safety for 
children. Not enough is being done to protect consumers--
particularly children.
    H.R. 2474 introduced by Chairman Rush aims to increase the 
maximum civil penalty for violations under the Consumer Product 
Safety Act. The current limit the CPSC can assess is $1.825 
million--the bill seeks to increase the limit to $20 million. 
Unfortunately, the current penalty is so low that some 
businesses see it simply as the cost of doing business. So 
these companies continue to violate CPSC safety violations, 
putting our children at risk.
    The Danny Keysar Child Product Safety Notification Act--
H.R. 1699 was introduced by Congresswoman Jan Schakowsky. 
Mirroring the National Highway Traffic Safety Administration's 
recall for car seats, H.R. 1699 requires everyday nursery 
products to come with a prepaid postage registration card for 
easy dissemination of recall information. Through this 
legislation, if a product is recalled, more consumers and 
children will be protected.
    The Children's Gasoline Burn Prevention act--H.R. 814 would 
require that the CPSC disseminate standards for portable 
gasoline caps for gasoline containers. Over 1,000 children are 
treated for burns related to gasoline on an annual basis. By 
streamlining these standards far less children will be harmed 
by gasoline.
    Finally H.R. 1721--the Pool and Spa Safety Act vastly 
increases the safety for consumers who use pools and spas. Over 
250 young children drowned in US pools and spas last year. This 
is a troubling number considering the total amount is much 
higher. The bill requires that all pools and spas sold in the 
United States adhere to anti-entrapment standards which are 
layers of protection that include barriers and safety vacuum 
releases. It also calls for CPSC to establish a grant program 
for the States to encourage successful passage of pool and spa 
safety laws.
    I strongly support these important legislative measures and 
urge passage. This is clearly a substantial first step in 
ensuring our children are properly protected although more must 
be done. The budget for the CPSC needs to be increased and we 
as lawmakers should have an increased vigilance for our 
country's children.
                              ----------                              


Prepared Statement of Hon. Tammy Baldwin, a Representative in Congress 
                      from the State of Wisconsin

     Thank you Mr. Chairman and I appreciate the opportunity to 
participate in today's subcommittee hearing on children's 
product safety. I applaud the chairman for holding this very 
timely hearing and I join my colleagues in welcoming the Acting 
Chairwoman of the Consumer Product Safety Commission as well as 
other witnesses.
    It has been over 2 years since the death of my constituent 
Collin Barberino that first alerted me to the dangers of 
furniture tipping. Collin was only 3 years old when a dresser 
that belonged to his new bedroom set fell on top of him and 
crushed his chest. The dresser was about 4 feet tall and 
weighed about 150 pounds. Almost exactly a year later, on 
Christmas Eve 2005, Courtlynn Schneider, also 3 and also from 
my Madison-based district, died when she climbed a dresser to 
reach the television on top, causing the TV to fall and 
crushing Courtlynn's head and chest.
    These two tragic incidents made it clear to me that the 
current voluntary furniture tipping standard is insufficient to 
protect young children. In fact, according to CPSC's own 
estimates, approximately 8,000 to 10,000 people, mostly 
children, are injured every year when household furniture, such 
as dressers, bookcases, and TV stands, tip over on top of them. 
When issuing a September 2006 warning about the dangers of TV 
and large furniture tip-over, the CPSC cited more than 100 
deaths reported since 2000 and twice the typical yearly average 
for the first half seven months of 2006.
    While I applaud the CPSC for issuing the warning last 
September recognizing the dangers of furniture and TV tip-over, 
the Commission has otherwise consistently resisted any 
regulatory improvement that would more effectively protect 
children. It is true that section 7(b) of the Consumer Product 
Safety Act requires the Commission to rely upon voluntary 
consumer product safety standards rather than promulgate a 
mandatory safety standard whenever such voluntary compliance 
would eliminate or adequately reduce the risk of injury 
addressed and that it is likely that there will be substantial 
compliance with such voluntary standards. However, it is also 
equally clear to me that in the case of furniture tip-over, 
compliance with voluntary standard by the furniture industry 
has not been substantial and the risk of injury continues to be 
significant, if not expanding. I will enter into the record an 
article from March 2006 issue of Consumer Reports magazine 
discussing testing done on common furniture in a child's room, 
as well as TV stands, to see if the furniture met the voluntary 
standards. The results greatly concern me. One of five dressers 
failed the test, one broke, and three others passed, but all 
three tipped when drawers were open all the way and a weight 
was applied. Clearly the voluntary standards are not 
satisfactory, and many furniture manufacturers knowingly do not 
meet them.
    I wrote to then Chairman Stratton of the Commission last 
February discussing the need for mandatory standards and 
bringing to his attention the testing results from Consumer 
Reports. In response, CPSC once again rejected mandatory 
standards but cited progress in working with ASTM to promulgate 
a new, voluntary, furniture tip-over standard that would 
incorporate standards on anchoring devices and warning labels. 
While this is a positive step, there continues to be no 
requirement that furniture manufacturers must adhere to such 
standards. It is the reason why I plan to once again co-sponsor 
a legislation, to be introduced by Congresswoman Schwartz, that 
would mandate warning labels and anchoring devices for 
furniture at risk of tip-over.
    I know that the existing vacancy on the Commission has 
created a quorum issue prohibiting the CPSC from promulgating 
new rules, but the issue of furniture tip-over predates the 
current leadership vacuum. It seems to me that the CPSC has 
allowed bureaucracy to undermine common sense and strayed from 
its mission to protest consumers from unreasonable risk of 
injury. If the Commission finds its current governing statutes 
too restrictive, it should have come before Congress and 
requested an update; if it finds the extensive mandatory 
rulemaking process too cumbersome, it should have sought ways 
to simplify such process. Just last week a 2\1/2\ year old girl 
from New Jersey was killed by a fallen television when she 
attempted to climb a bureau. I do not understand how many more 
deaths must occur before the Commission considers the risk of 
furniture tip-over unreasonable.
    I will continue to work with Congresswoman Schwartz and 
other members of the Committee to move a legislation that would 
establish mandatory standards to prevent furniture tip-over. I 
hope today's hearing will help impress upon the Commissioners 
just how important this committee regards children's product 
safety. I look forward to the testimonies from our testimonies 
today, and thank you again Mr. Chairman for giving me the 
opportunity to participate.
                              ----------                              

    Mr. Rush. Now the Chair recognizes the Commissioner of the 
Consumer Product Safety Commission, Chairman Nancy Nord. 
Chairman Nord was appointed to the CPSC in 2005 to a term that 
expires in 2012. She has served as CPSC's Acting Chairman since 
July, 2006.
     Chairman Nord, welcome to this subcommittee; and we 
recognize you for 5 minutes for opening testimony. Thank you 
very much for coming.

  STATEMENT OF NANCY A. NORD, ACTING CHAIRMAN, U.S. CONSUMER 
                   PRODUCT SAFETY COMMISSION

    Ms. Nord. Thank you so much.
    Chairman Rush, Congressman Stearns, distinguished members 
of the subcommittee, I am very pleased to be here to testify 
before you today. Indeed, if I could even start on a personal 
note, one of my very first jobs as a young lawyer fresh out of 
law school was to be counsel to the House Energy and Commerce 
Committee where I did consumer protection activities, including 
oversight of the CPSC. So for me to come full circle and to be 
testifying before you as the acting chairman of the Agency is 
an incredible honor. So I thank you for inviting me up here to 
testify today.
    As you know, the CPSC is a bipartisan, independent Federal 
regulatory agency. It was created in 1973, and it has the 
enormous task of protecting the public from unreasonable risks 
of injury associated with consumer products. We pay particular 
attention to those products that are used by our most 
vulnerable population groups, especially our children, as 
Congresswoman Schakowsky pointed out.
    I am pleased to report to the committee that the overall 
rates of death and injury from children's products have been in 
the decline since 2001. Indeed, since its inception, the CPSC 
has led the way in dramatically reducing injuries to children 
in a variety of areas, including crib deaths, household 
poisonings, small parts hazards, stair falls and baby walkers, 
to name just a few.
    But we cannot and will not rest on past accomplishments. 
Every day new children's products and product lines are 
introduced that represent new designs, new materials, new 
technologies and, as a result, new hazards. Recent media 
reports have highlighted one of these new product areas, and 
that is small magnets in toys and their potential to cause 
intestinal damage to children if swallowed.
    I met with Chairman Rush last night and, as we discussed at 
that point, our statutes and the fact that we have an ongoing 
open investigation really prevents me from getting into the 
specifics of product cases in an open hearing. I am happy to 
talk with you about the specifics of these privately or in 
writing.
    Nevertheless, I can tell you that this new and still 
emerging challenge is being met head on by the CPSC. We have 
been aggressively seeking to recall defective products, those 
where small magnets can be easily separated from the toy. We 
have been seeking to alert both parents and pediatricians of 
this potential hazard, and we have been working with a variety 
of stakeholders to ensure that new product standards are put in 
place to help prevent this problem from occurring again.
    Another area where we have been very active is that of lead 
in children's metal jewelry, jewelry which is frequently 
mouthed and pieces of which are sometimes swallowed by 
children. We have started a rulemaking to ban lead in 
children's jewelry and in the last 3 years have recalled more 
than 150 million pieces of children's metal jewelry found to 
have excessive lead levels.
    Mr. Chairman, I could go on; and I am happy to discuss with 
you specific product categories later. However, it must be 
realized, as several members have pointed out, that with a 
nationwide staff of just under 400 people, the Agency does not 
now have--and frankly it has never had--the resources to fully 
investigate all the hundreds of thousands of individual product 
incidents of which we become aware. To serve the American 
people as efficiently and as effectively as possible, we have 
to establish priorities, we have to identify incident patterns 
and, based on the best data available, move as quickly as 
possible to prevent unsafe products from entering the stream of 
commerce and to recall those that do.
    It should also be realized that the large majority of 
juvenile products that are purchased in the U.S. today are 
imported from overseas and a majority of those from China. As 
is the case with many other product categories that we oversee, 
these products have become relatively cheaper and more 
plentiful as a result of this unprecedented growth in imports. 
As this has occurred, we have struggled to ensure that overseas 
producers as well as their U.S. partners understand and adhere 
to both our statutory and our voluntary product safety 
standards. We have established an Office of International 
Programs, we have entered into 12 separate agreements with our 
foreign counterparts to work to reduce unsafe products, and we 
are increasing our cooperation with the Bureau of Customs and 
Border Protection and other relevant U.S. agencies. In fact, 
next week I will be in China to meet with our counterparts 
there to discuss in detail a number of concrete proposals that 
we have made to reduce the importation of unsafe products in 
several key product categories including toys.
    Mr. Chairman, the resources available to our Agency are 
modest; and, basically, we are charged to do more with less. 
Frankly, I think by objective standards we have met that 
challenge. The number of recalls that we did last year was up, 
it was a record high, and we are on record to meet and exceed 
that number.
    We are investigating a record number of section 15 reports. 
We have got going 14 rulemakings. That is more than we have 
ever had in the history of the Agency, and these are showing 
results. As I mentioned earlier, the number of child-related 
deaths and injuries is down significantly from 2001.
    As several members have observed, the CPSC was last 
authorized by Congress in 1990. Obviously, the marketplace has 
changed significantly since then. Explosion of imports, the 
safety challenges presented by counterfeit products, new 
emerging technologies such as nano materials, our governing 
statutes need to be modernized; and I look forward to working 
with this committee to do so at the appropriate time.
    Mr. Chairman, thank you so much for inviting me to testify; 
and I look forward to working with you over the coming months 
to address the issues that are of interest to you at the CPSC.
    [The prepared statement of Ms. Nord follows:]

    [GRAPHIC] [TIFF OMITTED] T1686.001
    
    [GRAPHIC] [TIFF OMITTED] T1686.002
    
    [GRAPHIC] [TIFF OMITTED] T1686.003
    
    [GRAPHIC] [TIFF OMITTED] T1686.004
    
    [GRAPHIC] [TIFF OMITTED] T1686.005
    
    [GRAPHIC] [TIFF OMITTED] T1686.006
    
    [GRAPHIC] [TIFF OMITTED] T1686.007
    
    [GRAPHIC] [TIFF OMITTED] T1686.008
    
    [GRAPHIC] [TIFF OMITTED] T1686.009
    
    [GRAPHIC] [TIFF OMITTED] T1686.010
    
    [GRAPHIC] [TIFF OMITTED] T1686.011
    
    [GRAPHIC] [TIFF OMITTED] T1686.012
    
    Mr. Rush. Thank you, Chairman Nord.
    Mr. Rush. The Chair recognizes himself for 5 minutes of 
questioning.
    Chairman Nord, does the Consumer Product Safety Act provide 
the CPSC with sufficient tools to protect the American public, 
especially children, from unsafe products? And what statutory 
changes should Congress consider to help you do your job 
better? You alluded to that during your testimony. Please help 
us to help you.
    Ms. Nord. Sir, the Consumer Product Safety Act sets out a 
fairly comprehensive and rather complicated regulatory 
framework under which we work to regulate specific product 
areas; and I think, by and large, the authorities of the Act 
give us the tools we need. However, it is important for this 
subcommittee to recognize that the Agency administers five 
different statutes, not only the Product Safety Act but four 
other statutes that address specific areas of jurisdiction. 
Frankly, the regulatory requirements of each of those acts is 
somewhat different, and you can end up with different results 
based on what act you are using.
    So I think that it would be very helpful for the committee 
to go through the examination with us at the Agency about why 
that is true and is there some way to harmonize, if you will, 
some of the provisions of these various acts so that we can 
have a comprehensive safety regimen.
    Mr. Rush. The CPSC is slated to get what I consider a very 
paltry increase in this budgeting fiscal year, 2008; and I 
understand that this increase will require a drop of 19 full-
time employees to an actual total of 401 employees. How can 
this Agency cope with that reduction and what CPSC activities 
will be sacrificed to work from a lower staffing figure?
    Ms. Nord. Sir, actually, we are already at that staffing 
level. We moved down over the past year have been working with 
that particular reduced staff number. We have done this in a 
couple of ways.
    First of all, it is important for you to understand that 
the Agency has been working very aggressively use technology 
tools to the extent that we have the resources to acquire them 
and implement them and use them in a way that helps us do our 
work more efficiently. I think you can see by the results--some 
of the figures that I mentioned in my testimony--that that 
technology has been incredibly helpful to us.
    As I said, as you know, we were double our current size 20-
some years ago, so we are investigating over double the number 
of incidents that we were investigating in 1982 when our 
numbers started to drop. So that is just one example of how, 
with technology tools, we can achieve greater efficiency.
    Another example, we have gone out and leveraged our safety 
mission with all 50 States; and, right now, we have people who 
are State employees who are basically working with us to extend 
our eyes and ears out in the States. They basically help us 
with policing the marketplace, looking for hazards, looking for 
recalled products; and they report in to us.
    Another example of how we have used technology to be more 
efficient here, those people were sending in paper reports; and 
the reports, one didn't look like the other. So somebody on our 
staff was trying to have to make sense of that. What we have 
done now is made this a Web-based reporting system so all the 
information comes in to us and in a much more useable manner. 
That is just one small example of how we have tried to be more 
efficient with technology.
    Mr. Rush. My time is up; and I will recognize the ranking 
member, Mr. Stearns, for 5 minutes of questioning.
    Mr. Stearns. Thank you, Mr. Chairman.
    Commissioner Nord, I just went through the Chicago Tribune 
story here; and it appears that your Agency reacted pretty 
quickly after it was brought to your attention in December. In 
March, you issued a voluntary recall of 3.8 million Magnetix 
sets. Is that true? So in a very short amount of time you did 
an investigation and you did almost 4 million recalls of the 
toy sets.
    Ms. Nord. We did. Actually, we have done a couple of 
recalls; and, again, please understand that I have some legal 
constraints on me with respect to getting into the details of 
all this.
    Mr. Stearns. But it is just as a matter of fact. You can 
say yes or no.
    Ms. Nord. Absolutely, we recalled it.
    Mr. Stearns. It appears to me that after you do the recall 
how are you going to get the people to voluntarily take it off 
the shelves? If you make a formal finding like, as you did, you 
say the product is defective, then the implication is a company 
must recall the product. But if it is made in China, you can't 
really force it to do that. So all you are left with is trying 
to get a voluntary recall at Wal-Mart, at Kmart and all these 
things. How is that going? How effective is a voluntary recall?
    The Chicago Tribune is saying when you sent out your press 
release about it asking for the recall there was some confusion 
about retailers and consumers. So I guess the question is, do 
we have an effective way to get the information out; and, two, 
what can you do to make sure the voluntary recall is 
implemented?
    Ms. Nord. Addressing the question in general terms, one of 
the things that I am really interested in and have spent a lot 
of time thinking about as a commissioner at the CPSC is how to 
make recalls as effective as they can possibly be.
    Let me tell you generally what happens in a recall. And let 
me preface this discussion by indicating to you that virtually 
all our recalls are voluntary in the sense that we haven't had 
to go to a mandatory court-type proceeding since 2001. So 
virtually all of our recalls are voluntary. However, having 
said that, product sellers have a great deal of incentive to 
cooperate with us in making sure that we are happy with----
    Mr. Stearns. What is the incentive for Wal-Mart to take it 
off?
    Ms. Nord. Basically we will make them do it if they won't.
    Mr. Stearns. How do you make them do it? Suing them?
    Ms. Nord. Certainly we can do that. We can certainly do 
that, sir. But the marketplace, the fact that Wal-Mart does not 
want to be having out there on its shelves recalled products, 
the fact that if they do indeed sell recall products, well, we 
will have our people in those stores and making them pull it 
off is good incentive.
    Mr. Stearns. But just sending a press release is not going 
to do that.
    Ms. Nord. We do much more than that.
    Mr. Stearns. If you were told about a product today, you 
send a mass e-mail, you send a notification. Just give me in 
the time remaining--because I am worried about if we give you 
all of the money and the people you needed and you knew 
immediately what the problem was--I am not sure you are going 
to get 4 million toys off the shelf soon enough to stop it.
    So I think the next step that we ought to realize is there 
has got to be a clear way for you to implement this recall 
notification whether it is through a press release or e-mails 
or whatever, or notifying the neighborhood safety network. But 
I am not clear that that is as strong as it should be.
    Ms. Nord. What we require companies to do at a very 
minimum--this happens in every single recall--is that we first 
of all require them, if they know who the individual consumers 
are, they must individually notify those consumers. There is a 
joint CPSC-company press release that goes out. That may be 
enhanced by video, news release, and other kinds of press 
coverage. We require them to put the notice on their Web site. 
We require them to post notice at retail. We require them to 
put in place a plan to pull the product off the retail shelves.
    And then once we get it off the retail shelves, then the 
biggest challenge, frankly, is getting consumers to pay 
attention to it and getting it out of children's hands, and 
that is one of the challenges that I have been spending a lot 
of time working on.
    Mr. Rush. Thank you.
    The Chair now recognizes Ms. Schakowsky for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Ms. Nord. I would like to suggest a way that I think we can 
be helpful in making recalls more effective. And that is H.R. 
1699, the Danny Keyser Child Product Safety Notification Act.
    Here is what this would do: For durable products, high 
chairs, cribs, strollers, durable children's products, there 
would be attached to that a postage-paid recall registration 
card. And this would allow the manufacturers to directly 
contact each parent who bought their products should any 
problem arise.
    Now we mentioned that after the National Highway and 
Transportation Safety Administration's recall system for car 
seats, that ended up with a tenfold increase in the number of 
families registering and the recall repair rates have gone up 
56 percent.
    You are shaking your head no.
    Ms. Nord. That is information that is rather contrary to 
the information I have. But I am interested to hear.
    Ms. Schakowsky. But the recall we have now went up by 56 
percent and that cost about 43 cents per item. Are you 
suggesting that that is not a workable solution?
    Ms. Nord. As I said, that information is new to me, and I 
am interested to know it.
    Ms. Schakowsky. This came from the 10-year study by NHTSA.
    Ms. Nord. We were petitioned, gosh, back in the early 
1990's, well before I was at the Agency to look at product 
registration cards. The staff did a fairly exhaustive 
examination, and the recommendation from our staff was that 
registration cards did not have a particularly effective return 
rate. We had the NHTSA information, and it is in our record. I 
have looked at it. And I would love to sit down with you, 
perhaps.
    Ms. Schakowsky. Why don't we look at that?
    The other thing in the Callahan report, in the Tribune, I 
just want to quote, I think this may have been the editorial: 
``a captive of industry, the Consumer Product Safety 
Commission, lacks the authority and manpower to get dangerous 
products off store shelves. And section 6(b) says that it 
requires that the CPSC negotiate with manufacturers on the 
warning of a press release announcing a recall.'' And at the 
end of the discussion about magnetics, a recall notice that 
went out says there is no required action for retailers.
    Now, at the time, the company had convinced the CPSC that 
their new product did not have that same kind of magnet, that 
it was more reenforced. However, there was no capacity to 
distinguish on the shelf between the old and the new. And in 
fact, the reporter of the series bought the old product.
    No wonder there was confusion. Mr. Stearns said how quickly 
you reacted, but the reaction, as described by the former head 
of enforcement of the CPSC, was a non-recall recall. I mean, if 
it says there is no required action for retailers, it means 
exactly nothing. And in the meantime, more children had severe 
problems and major, major surgery.
    I would like to ask you about the requirement that you 
negotiate seems on its face to put the power into the hands of 
the manufacturers rather than your experts at the CPSC.
    Ms. Nord. With respect to the Magnetix situation, there 
were--well, I would welcome the opportunity to address these 
issues in closed session or with you individually.
    Ms. Schakowsky. Let us talk about the general policy that 
the manufacturers have the final say about a press release that 
goes out on a dangerous product for children when your mission, 
as you stated, is to protect children. Why would the final say 
on what the language is----
    Ms. Nord. Well, first of all, I think it is not a correct 
statement to say they have the final say. We are constrained by 
section 6(b) which Congress enacted, and basically the purpose 
of that was to give us a tool to get information about a 
product and about----
    Ms. Schakowsky. The manufacturer can sue the CPSC if we----
    Ms. Nord. If we make inaccurate statements.
    Ms. Schakowsky. So they could tie up the CPSC if they say 
what you say is inaccurate. In other words, you really do need 
to get a check-off from the manufacturer.
    Ms. Nord. Ma'am, the purpose of 6(b) was to give us a tool 
that we could use to get information into the Agency that we 
could use. There is a provision in 6(b) that requires us to let 
the manufacturer know if we intend to release it and to give 
them 30 days' opportunity to correct the information if it is 
inaccurate.
    Now, I would suggest to you that 30 days may have made some 
sense in 1980. But in today's world, with instant 
communications, this may be an area that you would like to 
address, understanding there was and remains an underlying 
policy issue that Congress was addressing when it enacted 6(b).
    Mr. Rush. The gentlelady's time is up.
    The Chair recognizes the gentleman from Texas, Mr. Burgess, 
for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman. And thank you, Ms. 
Nord, for being here with us today.
    Currently what would you regard as being the top targets 
for dangers for children? What are the things out there that we 
ought to be looking at?
    Ms. Nord. When you look at death and injuries to children, 
frankly, sir, in spite of the fact that they have been coming 
down over the last 5 years, the biggest killer of small 
children are balls. One quarter of the children who died last 
year choked on balls. The second one was balloons, the third 
was tricycles. And with respect to tricycles, one of those 
children rode the tricycle into a swimming pool and drowned. 
The other two were in traffic. So with respect to death, those 
are the three biggest killers of children.
    With respect to injuries, we are looking at motorized 
scooters, bicycles, toys that allow children to go fast and end 
up in traffic.
    Mr. Burgess. Is the reason that those fall into the top 
tiers is because those are in such wide usage, or because of 
inherent danger in the design?
    Ms. Nord. Balls, small balls are ubiquitous, and unless 
Congress tells us that we need to get rid of marbles and jacks 
and that kind of thing. It is a problem. I mean, small children 
getting ahold of these balls that they can choke on remains a 
problem.
    Mr. Burgess. Let me ask you this, because I alluded to it 
in my opening remarks. If you find that there is something 
that, oh my gosh, this is just unparalleled danger that we had 
never anticipated, how do you get the word out about that? How 
do you make health care personnel aware of that? How do you get 
emergency rooms into the loop? What are the mechanisms at your 
disposal to get that information to the public?
    Ms. Nord. We work very closely with the medical community, 
and indeed have a very strong relationship with the Center for 
Disease Control, which gives us a well-developed entry into the 
medical community. We also have various stakeholders, and 
indeed the chairman alluded to one earlier, or perhaps it was 
Mr. Stearns, and that is our neighborhood safety network. 
Basically our neighborhood safety network is something that was 
set up a couple of years ago to give us entry into communities 
that might not either listen to or welcome messages from the 
Federal Government.
    It is working with community groups, it is working with 
various local stakeholders to try to get the message out and we 
have got, gosh, I think around 5,000 participants in our 
neighborhood safety network, and they then build on their own 
contacts and----
    Mr. Burgess. I don't know how effective it is. Do you have 
like a blast fax or blast e-mail that you send to the emergency 
rooms around the country so they know about the dangers of 
these little magnets? Because, again, I wasn't aware of them, 
and I will admit they were rudimentary searches on some medical 
Web sites that I check regularly, I found no mention of dangers 
from ingested magnets when putting ``ingested magnets'' into 
the search engine.
    Part of my concern is you have got these things, again that 
are manufactured in the People's Republic of China, so we can 
only guess to the quality control of the manufacturer. 
Presumably the magnets fall out. I don't know with what kind of 
regularity but that is the problem. The magnets fall out and 
the children then eat them.
    In your press release here, these older sets that were 
manufactured in China contained 250 plastic building pieces and 
half-inch steel diameter balls. There are one-inch squares, 
triangles, reflectors, connectors, extenders, curves, and come 
in an assortment of colors that are translucent and glow in the 
dark. It sounds like fun.
    But the problem is, again, we have products coming from 
overseas that are perhaps not well made and is very appealing 
to young children and yet poses an enormous hazard to them. And 
again, I am concerned about the ability to get that knowledge 
out there so that some poor child and some poor emergency room 
nurse or doctor doesn't miss a very important diagnosis and 
very important clue.
    Ms. Nord. Well, you have put your finger on a problem that 
we think about a lot, sir.
    With respect to this particular hazard, many doctors did 
view it as just the same thing as children swallowing metal so 
it was not recognized..
    The CPSC, frankly, the Agency that brought this to the 
medical community's attention, and one of our experts has 
written the leading article on this--it was published by CDC 
and distributed widely by CDC to the medical community. But 
nevertheless, sir, that is very difficult.
    We were having a conversation with a very well-known 
pediatric emergency room surgeon to enlist him to help us on a 
public service announcement that we have just done on magnets. 
And he was not aware of the issues. So it is a sense of 
frustration that we haven't figured out how to get the message 
out to every pediatrician.
    Now, one of the things that I do want to mention to you, 
because I think this is really important and indeed I would, if 
possible, like to enlist your aid on this; and that is, when we 
have recalls, it is really important not only to get the 
product off the manufacturer's shelves but also to make sure 
that consumers are aware of it.
    We have just initiated something called the ``Drive to 1 
Million.'' We have a Web site. We send out e-mail notices on 
CPSC recalls. People can sign up to get those e-mail notices. 
You don't have to get all of our recalls. You can indicate the 
kind of recall that you want to hear about. We are not going to 
be spamming anyone.
    But we are trying over the next year to get 1 million 
people signed up on our Web site to get CPSC recall notices, 
and it would really be very helpful to us if this is something 
you could bring to the attention of your constituents.
    Mr. Burgess. I will put it in my next newsletter.
    Mr. Rush. The Chair now recognizes Mr. Hill from Indiana.
    Mr. Hill. Thank you, Mr. Chairman. 
    I will return to accidental drowning.
    What do you think is the most effective thing that we can 
do to prevent children from drowning in swimming pools?
    Ms. Nord. Drowning is one of those hazards that is very 
important to the Agency. We have ongoing projects dealing with 
various aspects of drowning. But, frankly, sir, the two most 
important things are multiple barriers around the pool and 
constant supervision.
    We are just now starting a drowning safety campaign, and 
sir, the point that we are making in this campaign is that 
drowning is often a silent death. You don't hear splashes. You 
don't hear people crying for help in a pool. The child can 
slide under the pool silently and be gone in seconds. And I 
think parents don't understand that, caregivers don't 
understand that. They feel that a child--you can turn your 
attention away for just an instant.
    Constant supervision, multiple barriers, are really the 
most important things in addressing this issue.
    Mr. Hill. I was reading the testimony that Jim Baker's 
daughter gave to a committee that almost made me cry.
    Ms. Nord. It was awful.
    Mr. Hill. It was awful. Do we need to do something about 
these drainage vessels?
    Ms. Nord. I think in today's technology for pools and spas 
that are being manufactured, that has been addressed. And, of 
course, the problem is old, old pools and also making sure that 
when these things are installed, that building codes are 
complied with. Of course, the CPSC does not enforce local 
building codes, but that is something that localities need to 
take a look at.
    Mr. Hill. But you don't have the authority to require pool 
operators to use safety devices, right?
    Ms. Nord. No.
    Mr. Hill. Let me ask you a final question then.
    Do you support Congressman Wasserman-Schultz's bill that 
she has introduced, that was passed, but ran out of time last 
year?
    Ms. Nord. Sir, if you get it to us, we will enforce it.
    Mr. Hill. OK. All right. Thank you, Mr. Chairman. I will 
yield back the remainder of my time.
    Mr. Rush. The Chair now recognizes the gentleman from 
California, Mr. Radanovich for 5 minutes.
    Mr. Radanovich. Thank you, Mr. Chairman, and welcome to the 
committee.
    I didn't hear on the top three--I have got a 9-year old boy 
who is playing baseball right now. They are using aluminum 
bats. Isn't that becoming an issue right now with the desire to 
kind of get those out and go back to wood bats, because the 
impact that they have on chest impacts, because they are harder 
hitting than wood bats and there is a hard ball going with a 
lot of speed in those games. Do you care to elaborate on that?
    Ms. Nord. This is an issue we are aware of. We have been 
working with the NCAA to put in place informal requirements or 
voluntary requirements that the non-wood bats would have the 
same performance characteristics as the wood bats. However, 
having said that, even though within college and high school 
and school performance or school sports, you would expect to 
see the NCAA-certified license bat.
    Other ones are still available on the marketplace. We have 
not undertaken formal regulatory activity on that area, but we 
are very much aware of the issue. We are looking at it. And if, 
indeed, we see an increase of injuries, we would certainly want 
to take a further look at that.
    Mr. Radanovich. That is all of the questions.
    Mr. Rush. The Chair recognizes the gentleman from Utah. Mr. 
Matheson.
    Mr. Matheson. You mentioned in your testimony--I just 
wanted to clarify--what actions has the Commission taken on the 
issue of the lead content in toys?
    Ms. Nord. The Agency has a very long history of dealing 
with this issue. You should be aware that the CPSC is the 
Agency that banned lead in paint. And we have banned lead in 
paint on children's toys and indeed, unfortunately, do have to 
recall toys, generally imports, that end up with lead paint.
    You are aware that we have recalled millions of pieces of 
jewelry that had excessive levels of lead.
    We have a rulemaking underway to deal with lead in 
children's jewelry, the hazard being that children swallow it 
and when it is in their systems, it raises their blood levels. 
So we have a long history.
    I will tell you, sir, that we have also now gone to the 
voluntary standards group that deals with children's products, 
and we have asked them to open up an activity to look at how 
lead is used in vinyl with the notion of is there some way to 
either lower the level of lead in vinyl or ultimately get the 
lead out.
    Mr. Matheson. And with that long history and you couple 
that with my opening statement with where these things were 
coming from offshore 20 or 30 years ago, under the current set 
of rules and statutory capabilities that you have, how capable 
is the Agency of dealing with this, and are there changes that 
you would recommend that Congress needs to do to help you 
better address this issue in a globalized environment?
    Ms. Nord. Well, with respect to lead, sir, I think that the 
Agency has acted responsibly, and I am not here to suggest to 
you that we need to change the statute with respect to that 
particular product.
    You raise an issue, and I am hesitating as to whether I 
really want to get into it in this setting; but, gosh, I think 
I will.
    And that is we issue mandatory product safety rules which 
we, as an Agency, write. That is a very long, drawn-out 
process. And Congress put in place that process for good, solid 
reasons.
    However, Congress did include a provision, section 9(b) of 
the Product Safety Act, that let us sometimes rely on voluntary 
standards. And there is some confusion, I think both in the 
Agency and out in the regulated community, as to what happens 
if we rely on a voluntary standard.
    And I think that the statute takes you to the conclusion 
that in appropriate instances where you go through the shortcut 
process that is outlined in 9(b), you end up with a standard 
that you can put on the books, that you can use to address 
imports coming into the United States.
    I would be happy to give you an example of how this could 
work. But I think it is a tool that is available to us that the 
Agency really hasn't used. I would like us to start using it 
because I think it gives us a really good way of dealing with 
imports where you have U.S. products meeting voluntary 
standards, but imports that do not, and you that is the product 
that you are trying to get to, sir.
    Mr. Matheson. I think it is an issue to look at.
    I have one more question.
    I just want to mention, testimony before the Senate last 
year from the American Academy of Pediatrics noted that CPSC's 
own undercover inspections--this is with relation to all-
terrain vehicles--revealed sort of a variable compliance with 
your requirements that noted a decline in the amount of 
compliance; where in 1998 compliance was 85 percent, in the 
years 2000 to 2003 they dropped down to 63 percent and moved up 
to 70 in 2004.
    So we are sitting with about a third of dealers not in 
compliance.
    Do you know why these compliance rates have declined, as 
shown as by your investigations, when it comes to the ATV 
manufacturers?
    Ms. Nord. I would like to get back to you with the 
specifics of those statistics. But one of the things that I 
know is of big concern to us right now with respect to ATVs is, 
first of all, their popularity has just skyrocketed, and the 
number of imported ATVs coming in from China and Taiwan, 
specifically, has gone up as well.
    The Agency has action plans negotiated with the big 
domestic manufacturers. We don't have action plans with these 
small foreign manufacturers, and it is a problem that the 
Agency is very much aware of. We are trying to get a handle on 
it and it indeed is being addressed in rulemaking right now.
    Mr. Matheson. Seems like it is being a recurring issue with 
imported products.
    I yield back.
    Mr. Rush. Thank you.
    The Chair now recognizes the gentleman from Nebraska, Mr. 
Terry, for 8 minutes.
    Mr. Terry. Thank you, Mr. Chairman. I appreciate that.
    Just to kind of work through, somewhat historically, your 
duties, the products aren't presented to your office presale 
and distribution?
    Ms. Nord. No. The Congress made it very specific they did 
not want us to be doing that.
    Mr. Terry. You don't reverse-engineer a product and then 
put your seal of approval before it hits the shelf. 
Unfortunately, the way that your office becomes aware of a 
potential problem with a product is through hearing of a 
terrible situation where a child has been severely hurt or 
injured, correct?
    Ms. Nord. We become aware of issues through incident 
reports that we get in. We get in data from a variety of 
sources. We have something called the national electronic 
information surveillance system, or NEIS's system, which is a 
scan of hospital emergency rooms. We get in, oh, gosh, 350, 
sometimes 400,000 reports in any given year from the NEIS's 
system.
    We also get in information coming over the Web site and 
over the consumer hotline. We have field investigators who are 
out there looking at the marketplace. We read newspapers. We 
get in reports every night from, again, a scan of newspapers 
looking at incidents that are reported. We also get coroners' 
death certificates and then, again, we scan them for a 
relationship with products.
    Mr. Terry. Sounds like your office is fairly aggressive in 
trying to obtain information. You are continually exploring 
other ways of covering information to get a bad product off the 
shelf sooner. Seems like you can't start it until, 
unfortunately, something happens.
    Ms. Nord. Yes. One of the things I didn't mention also was 
a brand-new process that we have put in place in the last 
couple of years called a retailer reporting model, where the 
big retailers are now reporting to us on a weekly basis, on the 
incidents that they see.
    But, sir, you have touched on a point. We get in an awful 
lot of information. We want a lot of information, because by 
having that information we can then, I think, better pick up 
the patterns that we need to see in order to determine if 
something is a tragic fluke or if it is the start of a new 
pattern hazard. And it is making that distinction as early as 
you can in the process that really is the challenge for us. And 
that is what we are trying to do every day. It is a daunting 
challenge but I think we do it well.
    Mr. Terry. And that is a difficult position with that first 
incident report to determine if it is one of those just one of 
those things that happens versus a real safety issue that you 
need to start the process.
    You may have said this in your testimony, but let us say 
that you reach a conclusion fairly instantaneously after you 
become aware of an incident. How long does it take to be able 
to remove that product from the shelf and/or start the recall?
    Ms. Nord. Well, again, every recall is different, so it is 
hard to generalize. We have a category of recalls that we refer 
to as fast-track recalls where we can get a recall accomplished 
within 20 days of becoming aware of the problem. In fast-track 
recalls, the manufacturer basically comes to us and says we 
think we have a problem. We take a look at it, and our 
requirement is that we get it done within 20 days.
    Now about half of our recalls are fast-tracked recalls. So 
the committee should be reassured that in an awful lot of these 
things, we are getting the product out of the marketplace 
quickly.
    With other situations, we need to analyze the problem to 
make sure that there really is something that needs to be 
recalled, or that it really is the kind of hazard that we have 
the authority and responsibility to----
    Mr. Terry. I appreciate that.
    And when you do a recall or a big announcement of an unsafe 
product, I think that is how everyone visualizes your office. 
But there is an education component, too, that I want to bring 
up and discuss, because as we talk about balloons, small 
Superballs, that kids--especially my three boys--all grew up 
with that, but we knew that was a safety issue as parents.
    So when you are dealing with water balloons--not 
necessarily water balloons--but water balloons and things that 
are just inherently dangerous. I am not sure that Congress 
wants to eliminate Superballs and balloons. So therefore there 
is an education component here.
    Can you describe that part of your office? And how you are 
using that?
    Ms. Nord. Yes. Information and education is one of the main 
responsibilities of our Agency.
    We issue press releases, we do safety campaigns. For 
example, this month is electrical safety month. We have just 
put out an alert warning consumers on counterfeit electrical 
products. We are also next week going to be issuing a series of 
PSAs on drowning safety hazards. Again, focusing this year on 
the fact that drowning is such a silent killer and people just 
really don't understand that. They think, again, that you are 
going to hear shouts and splashes, and that is just not the 
reality.
    May is also Bicycle Safety Month, and we are doing a series 
of campaigns on that as well as helmet safety. So we have a 
very active consumer education component to the Agency.
    Finally, we also will put in place focused campaigns when 
the need arises. For example, the Congressman from Utah asked 
about ATVs. One of the things that we are doing with respect to 
ATVs is we have created an independent Web site called a 
ATVsafety.gov, and along with that Web site we have a whole 
series of PSAs that go along with that Web site and that push 
our safety message. We investigate every ATV death and, again, 
are prepared to move into the State with a PSA when an ATV 
death occurs.
    So we really work hard to carry out the information and 
education component of our mission.
    Mr. Rush. Thank you.
    The Chair now recognizes the gentleman from Massachusetts, 
Mr. Markey, for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    Welcome.
    What year did you work here on the committee?
    Ms. Nord. This is embarrassing to say, but in the late 
1970's and early 1980's, and I did consumer protection issues.
    Mr. Markey. Well, now this is like the amazing shrinking 
agency that you work on. It just keeps getting cut back and 
back and back, and you said you only have now two members of 
the Commission.
    Ms. Nord. Yes. It would be very helpful to have a third.
    Mr. Markey. Just amazing.
    Now you have jurisdiction over bicycles.
    Ms. Nord. Yes.
    Mr. Markey. But you don't have jurisdiction over roller 
coasters. So if a child is strapped into a roller coaster, 
hurtling at 75 miles an hour around curves 100 miles in the 
air, the risk to a child's safety are probably greater than 
those associated with riding a bicycle.
    But in the case of bicycles, you have jurisdiction where in 
the case of a fixed-site amusement ride, the CPSC does not have 
authority to investigate accidents, issue or enforce safety 
plans, or share information about accidents with other 
operators of the same ride in other States, which is a 
dangerous double standard that puts children's lives at stake.
    Would you support legislation to provide the CPSC with the 
authority and the resources to regulate amusement rides at 
fixed sites?
    Ms. Nord. Again, sir, Congress has looked at this issue and 
they have spoken on it. Believe me. If Congress changes the 
law, you can count on the CPSC to enforce it.
    Mr. Markey. Actually, that was just a prohibition but 
actually you did have regulation to regulate. David Stockman 
stuck it into the legislation bill in 1981. It was something he 
stuck in.
    Ms. Nord. I do remember that.
    Mr. Markey. Without letting anybody have any notice of it 
at all, which was a common practice at that time.
    In February 2007, Congressman Dingell and I wrote to you 
after a news story reported on dangerous lead levels in some 
children's vinyl lunch boxes. According to an AP report, the 
results of the first type of tests on the lunch boxes, looking 
for the actual lead content of the vinyl, showed that 20 
percent of the bags had more than 600 parts per million of 
lead. The highest level was 9,600 parts per million, more than 
16 times the Federal standard.
    In your response to our letter, you noted that under CPSC 
Federal law, total lead does not dictate action. Instead, 
designs must consider real-world interaction of child and 
product and the accessibility of lead from the product.
    And in testing for accessible lead in vinyl lunch boxes, 
CPSC staff did not bind levels to indicate the basis for taking 
action.
    Now, when the FDA determines the lead in lunch boxes could 
be a danger, which it has, it is called an unsafe food 
additive, the lead in the lunch boxes could migrate to the food 
inside and be ingested by a child. Isn't that lead therefore 
accessible to a child?
    Ms. Nord. The FDA enforces a very different statute from 
the one that the CPSC administers. And the standards under the 
Food, Drug and Cosmetic Act for food additives are very, very 
different. I mean, they are pretty starkly zero. And, indeed, I 
think you have to go through a process to have a food 
additive----
    Mr. Markey. But you are saying in your determination, if 
lead could seep into the food that children eat in the lunch 
box, that you are not allowed to protect children.
    Ms. Nord. That is not what the FDA found, and that is not 
what we found, sir. When we did our tests to see how accessible 
was the lead, that is not what we were finding, sir.
    The amounts of lead that were accessible and determined by 
our swipe tests were so minimal that our health scientists felt 
we did not have the statutory authority to proceed.
    Mr. Markey. So can you take note of what the FDA found that 
the lead could migrate into the food? Is that not something 
that you could note?
    Ms. Nord. They didn't say that it did. They said that it 
could. They didn't make any finding. They were basically using 
our test----
    Mr. Markey. They sent letters to you in the past. Have you 
sent letters to anyone in your jurisdiction?
    Ms. Nord. Sir, no. Of course not. No.
    Mr. Markey. ``of course not,'' did you say?
    Ms. Nord. I said no, we have not. We have taken no 
regulatory action, because we did not have a statutory basis to 
do that.
    Mr. Markey. Well, again, that is kind of disturbing to me 
that----
    Ms. Nord. Sir, if I could expand a little bit here.
    When we looked at this, we felt we did not have statutory 
authority to address the issue that you and Chairman Dingell 
raised.
    Let me tell you what we have done. And that is that we are 
concerned----
    Mr. Markey. Do you have statutory authority----
    Mr. Rush. I must remind the gentleman that his time is 
completed.
    We move on to the next witness. My friend from Tennessee, 
Mrs. Blackburn is recognized for 5 minutes.
    Mrs. Blackburn. Thank you. Ms. Nord, I appreciate your time 
with us today. Being someone that has spent much of her 
professional career in retail marketing and consumer marketing, 
I have an appreciation for the job that is in front of you, and 
I want to talk with you briefly during my time about two 
specific things, looking at your processes and procedures.
    We have talked a little bit about your education and I 
appreciate that in your testimony on page 8, you talked about 
that as a big part of your mission. And you have talked 
primarily about your reactive end of that, once something 
happens and how you work on it. And then I guess the proactive 
end, primarily you are initiative-driven with the Bicycle 
Safety month or a ``this'' or a ``that,'' trying to get 
information out. And I know you have upped the number of people 
that are going to your Web site. But when you look at 20 
million hits in the course of a year, that is still not what 
you would call market penetration by any stretch of 
imagination.
    So very quickly, because this is question No. 1, and I do 
want to move on to No. 2, how many of those 401 employees are 
given to the task of informing the American people that you 
exist?
    And then other than just specific initiative-driven events, 
what are you doing to make, with other Federal agencies, with 
the public as a whole, with industry, to basically partner to 
get the word out that you are there and you can help them?
    So, very quickly. We have got 3 minutes on the clock.
    Ms. Nord. OK. In our Office of Public Affairs, I think it 
is five or six people.
    Mrs. Blackburn. Five or six out of 400.
    Ms. Nord. We also have about a hundred people in the field, 
and they are certainly there to interact with the consumer.
    We have relationships with other Government agencies that 
we try to leverage. I talked about the one with the CDC, and 
that is a very important one. But we also interact with Federal 
regulatory agencies. For example, I just did an event with 
Nicole Mason over at NHTSA on car seat safety.
    Mrs. Blackburn. So you have those as ongoing relationships 
that you work with on a daily basis?
    Ms. Nord. Absolutely.
    Mrs. Blackburn. I think that is maybe not transparent to 
us. It is not something that we are seeing, and I don't think 
it is something that the public sees.
    Now moving on to the second part of my question, and if you 
want to submit anything additional in writing, please feel free 
to do so.
    Walk through the process. Again, on your procedure end, 
when you find out there may be just cause for reviewing a 
recall, that there is a problem with a product and you are 
getting anecdotal information, you may have a little bit of 
industry information, go through what a time line, the period 
of time that would lapse between recognition of an instance and 
then the issuance of a recall, just to give us, as we go 
through the next panel, kind of what we are talking about as 
what that time span would be.
    Ms. Nord. OK. Recalls happen in a couple of different ways.
    First of all, companies are required to report to us when 
they became aware of an incident. Companies, about half of our 
recalls are these fast tracks where companies come in, they say 
to us we think we have got a problem here. We take a look at it 
and within 20 days initiate the recall.
    Mrs. Blackburn. Within 20 days?
    Ms. Nord. Within 20 days.
    With other kinds of recalls, we basically are looking at 
information that comes in through these information sites that 
I described to Mr. Terry. And we will then contact the agent, 
the company, ask for information, we will sit down, we will go 
through a process of analyzing what the risk is and does this 
require a recall.
    Mrs. Blackburn. OK. And those take you how long?
    Ms. Nord. Every one of those is different. They can take a 
couple of days, a couple of weeks to a year.
    Mrs. Blackburn. So half of the recalls you initiate on your 
own and half are industry initiated?
    Ms. Nord. That would be a----
    Mrs. Blackburn. OK. And some of them can go--be turned 
around as quickly as a week, and some may take 3 weeks.
    Ms. Nord. Or 3 months or 90 days or 6 months. Every recall 
is different.
    Mrs. Blackburn. So there is no standard procedure.
    OK. All right. Thank you, Mr. Chairman. I yield back.
    Mr. Rush. The Chair recognizes Ms. Hooley for 5 minutes.
    Ms. Hooley. Thank you, Mr. Chairman, and again I thank you 
for being here today.
    I know that your organization deals with over 15,000 
different categories and virtually all products for children.
    I would like to get a better idea on how you decide what 
tests, what products, you are going to test at your lab. I am 
following up on Mrs. Blackburn's question. How many of your 
employees, your wonderful employees, are dedicated to testing 
products and what time do you spend reacting to what is on the 
market versus proactive, where you look at products and get 
them off the market before they--get them off the shelves 
before there is a problem?
    Ms. Nord. OK. We have a testing laboratory out in 
Gaithersburg, Maryland. We have about 35 people out there, of a 
variety of disciplines, but mainly engineers. And so that is 
the answer to that first piece of the question.
    But stepping back a little bit. Because we have such a 
broad jurisdiction, because there are so many issues, we really 
have to prioritize. And in the Code of Federal Regulations, we 
have published regulations that describe how we go about this 
prioritization process.
    Right now we have two strategic goals: one dealing with 
reducing the risk of residential fires, which certainly impact 
children; and the second is reducing the risk of carbon 
monoxide poisoning. Again, impacting children.
    And so with respect to those two strategic goals, we have a 
number of projects that we have initiated proactively to drive 
down the numbers in those two areas. And I am happy to get into 
detail with you if you wish.
    With respect to other hazards and risks. We have a number 
of ongoing programs, for example, with respect to drowning. The 
biggest issue I see--we are a Federal regulatory agency to 
regulate products. With respect to drowning, we don't have a 
product to regulate. But we have got to address it, and we have 
to deal with educating consumers, getting people to understand 
the need for multiple barriers of protection, the need for 
constant vigilance.
    So that is an example of a program that we have that we can 
consider, devote considerable resources to. But it is a little 
bit outside our typical focus as a regulatory agency.
    Ms. Hooley. How do you decide which products to test?
    Ms. Nord. We test products that we are concerned may be a 
safety hazard. If there is an allegation that it violates a 
mandatory safety standard, we would obviously test that to see 
if that is true.
    If we are concerned about the effectiveness of a voluntary 
standard, we would test products to see if indeed they do 
comply with the voluntary standard. If there is a recall, or if 
we suspect that there is a recall product out there on the 
shelves, we would test that information as well.
    Ms. Hooley. How many products come to your attention that 
you think need some testing but you can't test because of your 
staffing or funding issues?
    Ms. Nord. We don't test products unless we have a 
particular reason to test them.
    Ms. Hooley. So any product that you think you have a reason 
to test you can do. It is adequate.
    Ms. Nord. Ma'am, we can always do more.
    Ms. Hooley. I just wanted a sense of the products that you 
think you need to test, you are able to do that with 35 
employees at your testing labs and those labs have everything 
that you need.
    Ms. Nord. Again, every agency needs more resources and we 
would do more with more. But right now, if we have an issue 
with a product, we think we need to test it to make sure it is 
either complying or that it has a defect, we have the 
capability of doing that in our lab. It is not a modern 
facility by any means, but it is adequate.
    Ms. Hooley. OK. Thank you.
    Mr. Rush. The gentleman from Texas is recognized for 5 
minutes. Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    And Chairman Nord, thank you for your service. I don't 
think there is any doubt about your dedication or sincerity 
regarding your duties. I think the problem arises, obviously, 
from what you have to work with.
    And earlier, another Member alluded to the memo that is 
provided as usually the day before. That hasn't changed, 
whether it is Republican or Democrat. As a matter of fact, that 
meeting that takes place around 1:00, 1:30 on the preceding day 
of the hearing, where the Republicans used to have that staff 
meeting more like 4:00 or 4:30. I am not sure where the 
complaints are coming from.
    But regardless, this memo gives us some background. I 
understand whoever authors it may have certain information or 
may have their own feelings about things.
    But it appears that you have problems, not yourself, 
obviously, but the Commission with budget and personnel, that 
has been abundantly clear; the voluntary nature of the safety 
standards, not necessarily mandatory; the lack of real-life use 
or testing with children's products; and the limited facilities 
that you have by your own admission--and again, not to question 
anyone's dedication--limited sanctions when, in fact, someone 
violates some standards and such, and then recall 
ineffectiveness.
    And I think Congress had a point. What do you do with your 
resources? I guess you can divide it into being proactive and 
reactive. My theory is you don't have the resources to be 
really proactive, and you may need to concentrate on the 
reactive.
    And what I am getting at is the notice and the recall of 
dangerous products. And this is what the memo reads: Recall 
ineffectiveness. The CPSC has limited power to mount effective 
recall campaigns, first, because of limitations in section 6(b) 
of the Consumer Product Safety Act on the Agency's ability to 
make negative statements about specific products. The Agency 
must negotiate with the manufacturer on the wording of a press 
release announcing a recall. The CPSC may issue a press release 
over the objections of the manufacturer provided only if it 
first goes to court.
    Is that accurate?
    Ms. Nord. No. That is not accurate.
    Mr. Gonzalez. That is not accurate.
    So if you decide--and I know you had an expedited recall--
but that is basically where you have a manufacturer coming to 
you, and I am sure that is streamlined because you have an 
individual identifies their own product as posing a problem. 
How do you determine the wording, how do you determine the 
recall schedule and stuff? Is there anything that you must do 
in gaining the permission of the manufacturer before you would 
be able to proceed on the wording of the recall, on the 
imposing of the recall? Because that is what it appears to 
represent as far as materials I have. And I may be misreading 
it.
    Ms. Nord. As I indicated, virtually all our recalls are 
voluntary. The last time we did an involuntary recall was in 
2001. And that was the Daisy air rifle case.
    However, having said that, companies do have incentives, 
big incentives to cooperate with us, and they generally do.
    The notion that somehow companies control the recall 
process is just inaccurate, and I think it just does a terrible 
disservice to the whole notion of product safety.
    When we go through the recall process, we have to get 
information in. We have to understand what the problem is. And 
that is what 6(b) allows. It allows companies to give us 
information on the basis that we will not then disclose that 
information unless we give them prior notice and we can assure 
that it is accurate. And it is the accuracy that----
    Mr. Gonzalez. Let me ask you, what is the incentive for 
self-disclosure? You just said you have a tremendous incentive.
    Ms. Nord. The incentive is the fact that it is in the law, 
it is required to do so. If they don't come to us and talk to 
us about these issues, they are in violation of section----
    Mr. Gonzalez. What are the consequences? Is it serious 
enough to gain their attention?
    Ms. Nord. We fine them. We take them to court. We issue 
penalties.
    Mr. Gonzalez. Are the sanctions adequate, in your opinion?
    Ms. Nord. The sanctions are considerable, sir. And it is 
not the level of sanctions that gets in the way of us enforcing 
the law, sir.
    Mr. Gonzalez. Your own admission, though, is that you all 
have not had anything at recall that was initiated by you in a 
number of years. So what makes you feel so comfortable that we 
have the manufacturers voluntarily coming to you because of 
fear of some sanction that may be serious but maybe not that 
serious? I mean, I guess there seems to be almost a conflict. 
They don't have to worry about being found out, in essence.
    So what is the real incentive?
    Ms. Nord. Sir, the genius of the Product Safety Act, the 
thing that Congress did so well when you enacted the statute 
back in 1973 was to create that incentive. Basically what you 
have said is that if a product seller thinks that they may have 
a problem--not that they do have a problem but if they may have 
a problem--they have to come to us and they have to report to 
us. If they don't, then we can impose fines on them and, 
frankly, we do impose fines on them and they are considerable 
fines. But basically what that does is allow us to get 
information in the door so that we can analyze it, and that 
section 15(b) which is in the Product Safety Act really 
provides the incentive and is the key for an awful lot of the 
things we do.
    Mr. Rush. The gentleman's time is up.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. Thank you.
    Mr. Rush. The chairman now recognizes the gentlelady from 
Wisconsin. She is not a member of the subcommittee but we 
invite her to ask questions. Ms. Baldwin is recognized for 5 
minutes.
    Ms. Baldwin. Thank you, Mr. Chairman. I appreciate the 
opportunity to participate in today's hearing and I join in 
this hearing because of a personal interest and a commitment to 
the issue of furniture tipping. And it has been a little over 2 
years since the death of my constituent Colin Barbarino who 
first--this is what first alerted me to the dangers of 
furniture tipping. Colin was only 3 years old when a dresser 
that belonged to his brand-new bedroom set fell on top of him 
and crushed his chest, and the dresser was about 4 feet tall 
and weighed about 150 pounds.
    It was almost exactly a year later, on Christmas Eve 2005, 
when Courtlynn Snyder, also 3, from my district in south 
central Wisconsin, died when she climbed a dresser to reach the 
television set that was on top, causing the TV to fall and, 
again, crushing Courtlynn's head and chest.
    And these were two tragic incidents that made it clear to 
me that the current voluntary furniture tipping standard is 
insufficient to protect young children. In fact, according to 
CPSC's own estimates, approximately 8,000 to 10,000 people, 
mostly children, are injured every year when household 
furniture such as dressers and book cases and TV stands tip on 
top of them.
    When issuing the September 2006 warning about the dangers 
of TV and large furniture tipovers, the CPSC cited more than 
100 deaths reported since 2000, and twice the typical yearly 
average for the first 7 months of 2006. So while I applaud the 
CPSC for issuing the warning last September that recognizes the 
danger of furniture and TV tipovers, the Commission has 
otherwise consistently resisted any regulatory improvement that 
would more effectively protect children.
    It is true that section 7(b) of the Consumer Product Safety 
Act requires the Commission to rely on voluntary consumer 
product safety standards rather than promulgating mandatory 
safety standards whenever such voluntary compliance would 
eliminate or adequately reduce the risk of injury addressed, 
and that it is likely that there will be substantial compliance 
with such voluntary standards. However, it is also equally 
clear to me that in the case of furniture tipover, compliance 
with voluntary standards by the furniture industry has not been 
substantial, and that the risk of injury continues to be very 
significant, if not expanding.
    And I want to enter into the record an article from the 
March 2006 issue of Consumer Reports magazine discussing 
testing done on common furniture in a child's room, as well as 
TV stands, to see if that furniture meets the voluntary 
standards, and the results greatly concerned me.
     One of five dressers failed the test. One broke, three 
others passed, but all three tipped when the drawers were open 
all the way and the weight was applied.
    So, clearly, in my mind the voluntary standards are not 
satisfactory and many furniture manufacturers knowingly do not 
meet them.
    So I have just basically two sets of questions for you. 
One, the commission has cited section 7(b) of the Consumer 
Product Safety Act as a statutory barrier inhibiting the 
Commission from promulgating mandatory safety standards, and it 
has also described a rather protracted rulemaking process to 
create any mandatory standards. So I ask if you would support 
modifying 7(b) of the act to grant the Commission more 
authority in moving ahead with mandatory standards.
    And since I only have a couple more seconds, let me just 
get to the second major question. We have written to the CPSC, 
me and my colleagues, concerning the danger of furniture 
tipping, and you are probably familiar with our legislative 
attempts to address this matter. Have you reviewed legislation 
introduced by Congresswoman Allyson Schwartz last Congress that 
creates mandatory safety standards that include warning labels, 
anchoring devices, and weight requirements. Would you generally 
support that bill?
    Ms. Nord. Thank you for the question. With respect to the 
bill, I am not familiar with the bill. However, I am familiar 
with the fact that the Agency staff is now working with ASTM. 
They have initiated a new process to look at the existing 
voluntary standard to look at its adequacy.
    Going to the bigger question, ma'am, the Product Safety Act 
does set out a regime under which it really directs the Agency 
to look at issues in the marketplace that are not being 
adequately addressed by the voluntary standards writing 
organizations. And again, that is a way for us to focus the 
resources of the Federal Government in areas that are not 
otherwise being addressed. If there is a voluntary standard in 
place that is indeed adequate, then I do not believe that we 
would be able to meet the statutory requirements of the act 
dealing with addressing unreasonable risks that are not being 
met.
    If, however, there is a voluntary standard in place and it 
is not adequate or it is not being complied with, then we have 
no statutory prohibitions on proceeding. And we do indeed 
proceed, and we will in the future.
    Mr. Rush. I thank the gentlelady. Your time is up.
    The Chair is going to beg your indulgence. We want to have 
a second round, and it will be a brief second round. We will 
give each member 3 minutes to ask a question. And the Chair 
gives himself 3 minutes now for an any additional questions.
    Madam Chairlady, there was a follow-up article to the 
article in the Tribune--the original series, investigatory 
series, dated I think May 6 and 7. There was a follow-up 
article dated Friday, May 11 that says recalled magnetic toys 
are still in stores. Are you familiar with this article in the 
Tribune?
    Ms. Nord. I have read the Tribune material----
    Mr. Rush. It says that the Illinois attorney general's 
office has found stores across Illinois selling recalled toys 
linked to the death of one child and severe intestinal injuries 
of more than two dozen others. It also says that--and I am 
quoting from a statement from Ms. Kerry Smith, who is a deputy 
chief of staff for policy and communications for the Illinois 
attorney general's office. It says: ``Ideally, these products 
are recalled. Promptly, recalls make their way to the retail 
level and the kids are kept safe. That process needs to be 
airtight and it clearly is not.''
    Do you agree with that? And are there any suggestions that 
you have that would make recalls more effective today or 
tomorrow?
    Ms. Nord. OK. If there is product that has been recalled 
and the manufacturer intentionally puts it out there or the 
retailer intentionally sells it, then we have got the authority 
to go after that product seller, and we have in the past. 
Indeed this past spring we, initiated or issued a fine against 
somebody who did precisely that. And frankly, sir, as long as I 
am on the Commission we will aggressively undertake those 
actions.
    With respect to how can we make recalls more effective, the 
thing I want to emphasize here is that our first objective is 
to get the product off the store shelves and out of consumers' 
hands. That is the thing we are focusing on first when we do a 
recall. After we have accomplished that, then we step back and 
say, OK, is this a situation where we want to look at a 
potential further action? Is 15(b) applicable here? Do we need 
to bring an action against the manufacturer? And we do that 
with some frequency.
    However, I will tell you that one of the, I think, 
weaknesses in the current system and where I think it would be 
useful to have some further discussion with you is the fact 
that there is no place in the statute that makes it a violation 
of the statute if a product seller makes a commitment to us to 
do something and then does not live up to that commitment. If 
they commit to undertaking certain kinds of actions to get the 
product out of the marketplace, and if they don't do that, then 
there is no specific violation of the statute for that kind of 
activity, and there might be some useful conversations that we 
could have about that kind of improvement in the statute.
    Mr. Rush. Thank you so much.
    Now the Chair recognizes Mr. Gonzalez for an additional 3 
minutes.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. Chairman 
Nord, you have indicated that, of course, a lot of toys are now 
coming over from China and they may pose a problem. My sense is 
that those toys usually will end up in certain types of stores, 
and these certain types of stores--and I guess I will just name 
one of them, the Dollar Stores. And if you look at where they 
are actually located, that is going to be lower-income 
neighborhoods, and then you can maybe see established patterns 
and you know that there are certain markets that you want to 
address regarding those particular toys that you know probably 
pose a real risk.
    What are you doing to address that particular aspect of the 
Chinese imported toys?
    Ms. Nord. Well, sir, a couple of things, starting on sort 
of the global level and then working down, if you will. The 
Agency, for the first time 3 years ago, negotiated a memorandum 
of understanding and an action plan to implement that 
memorandum of understanding with our counterpart agency in 
China. And as a part of that, we set up four different working 
groups under that plan of action dealing with the import of 
fireworks, electrical products, toys and cigarette lighters.
    So we have developed a whole series of activities in each 
of those four different product areas that we are going to be 
talking with the Chinese about to see if we can implement some 
specific activities to address this. And indeed that is one of 
the reasons that I am going to be meeting with my Chinese 
counterpart next week. And that will all lead up to a Chinese-
United States safety summit that will be held here in 
Washington in the fall of 2007.
    So on the global issue, we are trying to address it, 
although this is a huge problem and it is a real hard problem 
to get our arms around. And I am not going to sit here and 
pretend to you that we have got our arms around it. We are 
working on it, but we don't yet. So that is what we are trying 
to do to stop the manufacture of this unsafe product.
    Then the next issue is, OK, if it is manufactured, it gets 
on the boat, then what do you do to stop it at the port? We 
have a good working relationship with the Customs Bureau, and 
we have got, again, a memorandum of understanding with them. 
They are implementing a new automated system that allows them 
to look at the contents of cargo containers with a lot more 
precision than they have in the past.
    We are part of that, or we are going to become part of that 
whole process so that we will have access to that data and our 
compliance people will be able to see it before--to see what is 
in the containers before it arrives, again, to focus our 
efforts in problem areas. If something gets into the stream of 
commerce, then it is our responsibility to remove it from the 
stream of commerce.
    I am very much aware of the issue that you raised. There 
are certain stores and certain retailers that we spend more 
time focusing on because we see the kinds of incidents you deal 
with. But again at that point, it becomes a task of trying to 
pull it out of the stream of commerce, and that is a much 
harder task.
    Mr. Gonzalez. I just wondered, is there any outreach that 
you are doing to those identified neighborhoods where these 
particular retailers set up shop? Because that is pretty easily 
identifiable.
    Ms. Nord. This is done specifically through our 
neighborhood safety network, which is basically a network of 
local and community-based organizations that are working with 
us to try to disseminate safety messages. And we do talk 
through the neighborhood safety network to these kinds of 
communities. All the materials that we put out to the NSN are 
translated into Spanish. We do specific periodic outreach to 
them but, again, you know we work at this, sir, and I am sure 
there is more that we could be doing, and we do the best we 
can.
    Mr. Rush. The gentleman's time has expired.
    Mr. Gonzalez. Thank you.
    Mr. Rush. Madam Chairman, before we go to our final series 
of questions, would you please make available to the members of 
this committee a listing of the neighborhood associations' 
safety networks?
    Ms. Nord. I would be delighted to.
    Mr. Rush. So we can distribute them by districts for 
members of the subcommittee. Thank you so very much.
    The gentlelady from Wisconsin is recognized.
    Ms. Baldwin. Thank you. I believe I heard some 
encouragement in your answer to my questions on furniture. I 
want to press just a little further because it does sound--if I 
heard you correctly, you said that you didn't view section 7(b) 
as an impediment to moving to a mandatory standard, assuming 
that our voluntary standard has not adequately reduced the risk 
of injury or has not resulted in substantial compliance. And on 
this issue in particular you also expressed that you had not 
had a chance to review our legislation authored by 
Congresswoman Schwartz on this issue.
    Basically what it does is require a mandatory standard 
rather than a voluntary standard on this issue. But what I 
would ask you is, what sort of help can we provide you in 
moving ahead to a mandatory standard on this issue in reaching 
the conclusion that the voluntary standard has not resulted in 
substantial compliance throughout the industry and has not 
served to adequately reduce the risk of injury?
    Ms. Nord. Well, as I mentioned earlier, we have been 
looking at this issue as it is being implemented by the 
voluntary standards organization. Well, let me back up again.
    ASTM has issued a voluntary standard dealing with furniture 
tipover that requires warning labels and anchors. They have 
revised that standard. They are now in the process of revising 
it again. And our staff is working very closely with ASTM on 
this revision process. Once the standard is put into place, 
then what we would need to do is look to see is it being 
implemented, and is it being effective? And that is what 
Congress is basically directing us to do.
    Ms. Baldwin. Can they keep on pushing the data off as they 
make a little revision here and a little revision there? When 
do we say voluntary hasn't worked and we need to have a 
mandatory standard? If I am pressing you do anything, it would 
be to look very seriously. I think a mandatory standard is 
absolutely needed in this case.
    Ms. Nord. Ma'am we will look very seriously at it. Again, 
the statute outlines the things we look at and directs us to 
make findings, very specific findings. So when we go through 
this process, that is what we do. And as a part of that, if we 
think that there is an unreasonable risk of injury and it is 
not being addressed by a voluntary standard, or if there is a 
voluntary standard out there and it is not being complied with, 
then, again, under the statute we can proceed. But when we 
proceed we also have to make these other kinds of findings 
under the Product Safety Act, and that is what we do.
    Mr. Rush. The gentlelady's time has expired. Madam 
Chairlady, we really appreciate your time today. You have been 
most gracious with your time. We thank you so much for 
appearing before this committee, and we will commit to working 
with you to ensure that our children are safe in the future. 
Thank you so very much.
    Ms. Nord. Thank you so much, sir.
    Mr. Rush. We will call the next panel, panel II, to appear:
    Mr. Alan Korn who is the public policy director and general 
counsel for Safe Kids Worldwide. Ms. Rachel Weintraub who is 
director of product safety and senior counsel for the Consumer 
Federation of America. Frederick Locker who is with the firm 
Locker, Brainin and Greenberg, from New York City.
    Dr. Marla Felcher, adjunct lecturer at the Kennedy School 
of Government at Harvard University. She has a Ph.D. She is the 
author of a book, ``It Is No Accident How Corporations Sell 
Dangerous Baby Products.''
    Mr. James A. Thomas who is the president of ASTM 
International.
    And Ms. Nancy A. Cowles, executive director of Kids in 
Danger, from Chicago Illinois.
    We want to thank you for your patience. We will ask that if 
you have opening statements please be mindful of the fact that 
you have a 5-minute limitation on your opening statements and 
we will begin with you, Dr. Korn.

  STATEMENT OF ALAN KORN, DIRECTOR, PUBLIC POLICY AND GENERAL 
                  COUNSEL, SAFE KIDS WORLDWIDE

    Mr. Korn. Thank you, Mr. Chairman, Mr. Gonzalez. We want to 
thank the committee for holding this hearing. We are 
particularly pleased that you are doing it so early in the 
110th, which we believe is a comment on your leadership and 
hopefully bodes well for children in this country which is 
something that Safe Kids Worldwide cares greatly about.
    With the chairman's permission I would like to note that my 
written testimony discusses many of the issues that were 
discussed here today: civil damages, voluntary standards, some 
of the bills that are pending, ways to improve effective 
recalls.
    But I would like to take the short time I have in oral 
testimony to speak just about the Pool and Spa Safety Act which 
I believe significantly--it passed the United States Senate 
last year by unanimous consent, and came so close in the House 
of Representatives just at the end of the 109th--in fact, it 
was the very last bill that was voted on in the 109th and it 
came just a handful of votes short of passing. You have the 
numbers. I won't go through them in detail.
    Suffice it to say that far too many children are dying from 
injury as it relates to drowning. Of these drowning deaths it 
is estimated that about 40 percent, even a little bit more in 
some areas of the country, including your region, die in pools 
and spas. Many of these deaths are due to children having 
unfettered or very easy access to pools or spas, or as the 
result--that has been discussed--of not properly supervising 
children while swimming. But I would like to point out, sir, 
that there is a hidden hazard related to pools, and that is 
called drain entrapment.
    You heard the story of Secretary of State James Baker 
losing his granddaughter, Graeme Baker, at the bottom of a pool 
spa. I must say this to you: I have been doing this for 12 
years, and only one other death that I have heard of in my time 
here was more disturbing than that one.
    It is a very difficult job I have, an interesting job to 
think about, talk about all the time, about how children die. 
That story in particular was very disturbing. The risk is 
associated with the circulation system of the pools, and the 
risk, unlike the more common forms of drowning which I 
mentioned early on--the unfettered access to pools--has nothing 
to do with lack of proper adult supervision but has everything 
to do with the way pools are built and maintained in this 
country. Far too many children, not as many as regular 
drowning, are dying from this entrapment. It happens very much 
like if you put your hand on the end of a vacuum tube or a 
vacuum cleaner, that suction--that is what happened. It took 
two adults well more than 5 minutes to break Graeme Baker off 
the bottom of that pool spa. Suffice it to say it was too late 
by then. A really really horrible story.
    Thankfully there is a solution to the problem, and I will 
try not to read my testimony and just kind of talk you through 
it. First is four-sided fencing, which is very important. It 
has been mentioned by several of the members here already. That 
is fencing that goes completely around the pool that prevents 
that unfettered access to children who either wander from 
another yard or wander from out of their home into a 
neighborhood backyard pool.
    Same thing applies, by the way, to commercial pools. The 
same type of fencing is required. We think that 50 to 90 
percent of the drownings could be prevented just by that single 
act alone.
    The Wasserman Schultz and Frank Wolf bill--and I think many 
members of the subcommittee are already cosponsoring the bill 
that would address that issue.
    Second is anti-entrapment drain covers and I brought a 
visual with me, if I could. This here is the dangerous drain 
cover. You see it is flat and flush to the bottom of a pool. A 
child forms the suction. This is not unlike what happened to 
Graham Baker, the Secretary's granddaughter. And you could make 
the seal.
    Well there is a better product on the market now that is--
although these are still around and still can be purchased. 
These, as you can tell--I am not an engineer, but you can tell 
there is a different shape to that that prevents that seal from 
happening. If a person sits on this or gets sucked on this, you 
can't get that seal. So this is a very important device and, 
again, the Pool and Spa Safety Act addresses that.
    I would also like to mention a safety vacuum release 
system, another thing that the bill addresses, and this detects 
any unnatural source or any blockage at the drain and 
automatically shuts the system off. That kind of prevents that 
panic that you have by the pool that happened in the backyard 
pool in the Baker neighborhood. It automatically shuts the 
suction system off so the child can break free.
    There are dual drains which I will also mention is very 
important. The more drains you have at the bottom of the pool, 
in particular for new pools, the less single-source suction you 
have.
    And then, finally, pool alarms, which is kind of that last 
protection there. The chairman mentioned someone riding a 
tricycle into a pool. Well, I have seen this particular pool 
alarm demonstrated and an alarm would have went off both in and 
outside the house immediately. It takes 6 seconds from the fall 
into the pool for this alarm to go off.
    So we like those types of layers of protection, as you 
heard the chairman of the CPSC mention. If I could, I will just 
conclude by saying we are very supportive of the pool and spa 
safety grant, which does a number of things, one of which is it 
requires a standard for these. So let's get rid of these in the 
marketplace, so only that this is provided as you go out to 
build and maintain and service your pools.
    The other is to address those pools that are already 
existing by way of incentive grants, to get the States to pass 
laws that require four-sided fencing, drain entrapment safety 
vacuum release systems, and pool alarms.
    I see my time is up. I will say that it is not--many of 
these incentive grants in the past originated in this committee 
for other safety devices: booster seats, safety belts. So it is 
a way to motivate States to do the right thing.
    I am happy to answer your questions on any of these things 
and certainly the other issues that have been discussed today. 
Thank you very much.
    [The prepared statement of Mr. Korn follows:]

    [GRAPHIC] [TIFF OMITTED] T1686.013
    
    [GRAPHIC] [TIFF OMITTED] T1686.014
    
    [GRAPHIC] [TIFF OMITTED] T1686.015
    
    [GRAPHIC] [TIFF OMITTED] T1686.016
    
    [GRAPHIC] [TIFF OMITTED] T1686.017
    
    [GRAPHIC] [TIFF OMITTED] T1686.018
    
    [GRAPHIC] [TIFF OMITTED] T1686.019
    
    [GRAPHIC] [TIFF OMITTED] T1686.020
    
    [GRAPHIC] [TIFF OMITTED] T1686.021
    
    [GRAPHIC] [TIFF OMITTED] T1686.022
    
    [GRAPHIC] [TIFF OMITTED] T1686.023
    
    [GRAPHIC] [TIFF OMITTED] T1686.024
    
    [GRAPHIC] [TIFF OMITTED] T1686.025
    
    [GRAPHIC] [TIFF OMITTED] T1686.026
    
    [GRAPHIC] [TIFF OMITTED] T1686.027
    
    Mr. Rush. Thank you very much.
     The Chair recognizes Ms. Rachel Weintraub, director of 
product safety and senior counsel for the Consumer Federation 
of America.

  STATEMENT OF RACHEL WEINTRAUB, DIRECTOR, PRODUCT SAFETY AND 
         SENIOR COUNSEL, CONSUMER FEDERATION OF AMERICA

    Ms. Weintraub. Chairman Rush and members of the 
subcommittee, thank you very much for the opportunity to speak 
today. Thank you for holding this hearing, and please accept my 
written comments as the full extent of the breadth of what I 
wish to discuss today.
    The CPSC is an incredibly important independent Federal 
agency with jurisdiction over all consumer products, which is 
really--the estimation of how many products it has jurisdiction 
over is low-balled by 15,000 products--it is at least 15,000, 
and likely thousands more. The CPSC statutes give the 
Commission the authority to set safety standards, require 
labeling, order recalls, ban products, collect data, and 
collect death and injury data, inform the public about consumer 
product safety, and contribute to the voluntary standard 
setting process.
    CPSC was created to be proactive. Unfortunately, that 
proactivity has been thwarted by a diminished budget and 
limiting statutory provisions. CFA doesn't always agree that 
CPSC is acting in the best interest of consumers. However, we 
do believe that a stronger CPSC can better serve the public 
than a less robust one.
    In addition, CFA has deep respect for CPSC staff. They are 
dedicated, hardworking, and have worked diligently while 
weathering the storm of budget cuts and lack of quorum.
    What does CPSC need? First, an increased budget. Over 30 
years after it was created, the Agency's budget has not kept up 
with inflation, has not kept up with its deteriorating 
infrastructure, has not kept up with the changes in product 
development, and has not kept pace with the increase of 
consumer products on the market. CPSC staff has suffered 
repeated cuts during the last two decades, falling from a high 
of almost 1,978 employees to just 401 in this next fiscal year, 
the fewest in the Agency's history. The 2008 budget would 
provide only a little bit more than $63 million.
    While every year an estimated 27,100 Americans die from 
consumer product-related causes, an additional 33.1 million 
suffer injuries related to consumer products. This Agency is 
limited by what it can do. It is for this reason that CFA 
believes two of the most important things that this committee 
can do is to increase the budget and provide increased 
oversight for CPSC.
    The CPSC's authorizing statute, the CPSA, requires that the 
Commission rely upon voluntary consumer product standards 
rather than promulgate another mandatory standard when 
compliance of a voluntary standard would adequately solve the 
problem and when there would likely be high compliance with 
that voluntary standard. But this can act as a shield, 
preventing the Agency from taking critical steps to initiate 
mandatory rulemaking proceedings.
    In addition, the Commission does not always police the 
market adequately to ascertain whether the voluntary standard 
is working. For this reason, CFA supports H.R. 1698 introduced 
by Representative Schakowsky.
    Due to limited resources and a reliance upon voluntary 
standards, the Commission has not issued mandatory standards 
for numerous products posing risk to consumers. I would like to 
highlight just a few:
    Furniture tipovers are an incredibly important problem. At 
least 8- to 10,000 people require emergency treatment each year 
as a result of furniture or appliance tipovers resulting in an 
average of at least 6 deaths. Most of these injuries and deaths 
occur to children when they climb onto, fall against, or pull 
themselves up on furniture and appliances such as stoves. We 
support the legislative efforts undertaken by Representative 
Schwartz, whose bill would require CPSC to promulgate safety 
standards for these products.
    All terrain vehicles are another issue CFA is very 
concerned about and we are currently very dissatisfied with 
CPSC's rulemaking proceedings. Serious injuries requiring 
emergency room treatment would increase to 136,700 in 2006 and 
deaths in 2005 reached an estimated 767. CPSC's rule changes 
the way ATVs have been categorized, by engine size, to a system 
based on speed, which is highly flawed.
    Increasingly, lead has been found in children's products, 
including jewelry, lunch boxes, bibs, cribs, and other 
products. Serious acute and irreversible harm can result to 
children after a resulted exposure to lead. And we urge CPSC, 
in congressional action, to improve CPSC statutes. We recommend 
that recalls be made more effective through direct consumer 
notification. We support Representative Schakowsky's bill on 
this issue. We suggest that the cap on civil penalties be 
eliminated; $1.85 million is a paltry amount, not doing an 
adequate job. We urge the repeal of section 6(b) of the 
Consumer Product Safety Act. We urge Congress to restore 
authority over fixed-site amusement parks. And we also support 
H.R. 1893, to require the same warning labels on toy packagings 
that are required to also be posted on the Internet.
    In terms of imports, CPSC and consumers, as well as 
Congress--specifically, really, Congress--and CPSC need to work 
to hold all major children's product manufacturers responsible, 
both large and small manufacturers responsible for unsafe 
products imported into the market. CPSC and Congress must 
assure and prohibit the export of products that don't meet 
voluntary or mandatory safety standards, no matter where the 
products are made, whether here or anywhere else.
    In conclusion, this subcommittee must make sure that the 
Federal Government lives up to the commitment it made when it 
created CPSC to protect consumers from product-related deaths 
and injuries. Thank you very much.
    [The prepared statement of Ms. Weintraub follows:]

    [GRAPHIC] [TIFF OMITTED] T1686.028
    
    [GRAPHIC] [TIFF OMITTED] T1686.029
    
    [GRAPHIC] [TIFF OMITTED] T1686.030
    
    [GRAPHIC] [TIFF OMITTED] T1686.031
    
    [GRAPHIC] [TIFF OMITTED] T1686.032
    
    [GRAPHIC] [TIFF OMITTED] T1686.033
    
    [GRAPHIC] [TIFF OMITTED] T1686.034
    
    [GRAPHIC] [TIFF OMITTED] T1686.035
    
    [GRAPHIC] [TIFF OMITTED] T1686.036
    
    [GRAPHIC] [TIFF OMITTED] T1686.037
    
    [GRAPHIC] [TIFF OMITTED] T1686.038
    
    [GRAPHIC] [TIFF OMITTED] T1686.039
    
    [GRAPHIC] [TIFF OMITTED] T1686.040
    
    [GRAPHIC] [TIFF OMITTED] T1686.041
    
    [GRAPHIC] [TIFF OMITTED] T1686.042
    
    [GRAPHIC] [TIFF OMITTED] T1686.043
    
    [GRAPHIC] [TIFF OMITTED] T1686.044
    
    [GRAPHIC] [TIFF OMITTED] T1686.045
    
    [GRAPHIC] [TIFF OMITTED] T1686.046
    
    [GRAPHIC] [TIFF OMITTED] T1686.047
    
    [GRAPHIC] [TIFF OMITTED] T1686.048
    
    Mr. Rush. Thank you. Our next witness is Mr. Frederick 
Locker. He is with the law firm of Locker, Brainin and 
Greenberg, from New York.

STATEMENT OF FREDERICK B. LOCKER, GENERAL COUNSEL, TOY INDUSTRY 
           ASSOCIATION; LOCKER, BRAININ AND GREENBERG

    Mr. Locker. Yes sir, we act as general counsel to the Toy 
Industry Association. I want to thank you, Mr. Chairman and 
members of the committee, for allowing us to appear today and 
to talk about a longstanding commitment to children's product 
safety.
    We certainly all shudder at the tragic loss of any child's 
life. Whether it is a child involved by accident or some other 
problem, we are just saddened by that loss. We are in a 
business to provide fun and joy and pleasure and learning to 
children. They are our most valuable resource. They are our 
most valuable customer.
    In connection with the U.S. Consumer Product Safety 
Commission and the important subject of children's product 
safety, we want to be clear that we have acted for decades to 
promote the development of significant children's product 
safety standards. This is done under the auspices of ASTM, ANC 
and ISO. These are not just consensus standards that govern 
children's products. The regulation of children's products 
accounts for approximately 40 percent of all the existing 
regulations, or perhaps more, at the CPSC. There are a 
tremendous breadth and scope of mandatory toy safety 
regulations and children product safety regulations. None has 
been more effective, for example, than the small parts 
regulation which has prevented death from choking and 
aspiration or ingestion from millions of kids. It has been a 
remarkably effective standard. It is not voluntary. It is 
mandatory.
    We support the strict enforcement of mandatory regulations 
against any importer that violates the CPSC regulations. Now, 
CPSC activity has certainly increased with fewer resources. 
During the past decade they have conducted more than 5,000 
recalls, and they have needed to resort to litigation rarely. 
And let me explain something about that. One of the reasons is 
it is not a question of people being dragged, kicking and 
screaming; it is a question of people, particularly in the 
children's product industry, want to do the right thing. If you 
have a reputation for selling an unsafe product in this 
business, you are soon out of business.
    It is in everyone's economic motive and, in particular, 
American manufacturers who produce these products, to ensure 
the safety of children. But, nevertheless, when we find 
mandatory regulations lacking or in need of quick and swift 
action we take action. That is why we have worked to develop 
these many voluntary standards that deal with children's 
products, whether they are nursery products or toys or a whole 
range of products.
    And encompassing the standard, as perhaps Mr. Thomas will 
touch on, you will find that there is an enormous complexity of 
issues that are dealt with in a rather rapid length of time. 
This can be accomplished quickly because CAST in process is a 
living, breathing, consensus process. It forces us to 
reevaluate the assumptions upon which those safety regulations 
are based, over and over, and adjust them accordingly.
    CPSC is completing over 214 voluntary standards, while 
issuing 235 mandatory standards, while shrinking resources and 
using the leverage collaboration of their staff over the past 
decade.
    Now, our ASTM standard, the standard consumer safety 
specification on toy safety, is clearly recognized globally. It 
was the basis for the European regulations of toy safety. It is 
the basis for the International Standard Organization 8124 
which is a global toy standard. It is increasingly being used 
by every country in the world, including China. We work to 
develop these standards because children, as I have noted, are 
a priority.
    Now, keep in mind when analyzing all this recall data, what 
are we talking about? Recalls involving children's products 
actually account for the vast majority of product recalls 
conducted in cooperation with the Commission. As I have 
mentioned before--half of CPSC's regulations already 
specifically directed at children's products and the heightened 
awareness of obligations to children, companies are responsible 
for a higher percentage of recalls and corrective actions 
undertaken, almost one-third.
    Of course, there are still occasions where the Commission 
may seek to act to remove unsafe products from the marketplace 
and set standards where those private standards either do not 
exist or are clearly inadequate. We have touched on that in 
connection with section 7 of the act. I want to be very clear: 
That act does not act as a bar to the regulation of products by 
the CPSC. CPSC has only formally recognized voluntary standards 
on two occasions. All those other 214 standards are there and 
subject to further enforcement or mandatory imposition of 
regulation, if required. And the key word is ``if required.'' 
it is important for them to monitor the marketplace to make 
sure the standards are in conformance, and they have been doing 
this.
    So we know, for example, that the voluntary standard 
dealing with cribs has resulted in 89 percent reduction of 
fatalities since its inception. For walkers it is 84 percent, 
and it has been lauded by the American Academy of Pediatrics as 
a model standard.
    Mr. Rush. Your time has expired.
    Mr. Locker. I just want to make a few recommendations, 
however. What can the CPSC do better? What does it need to do 
better? Retain experienced personnel and prevent the so-called 
brain-drain to analyze those emerging hazards that may be 
difficult to discern; prioritize risks for children; work to 
develop standards, consensus, if effective, or mandatory to 
address such risks; create information and education campaigns 
that reinforce safety messaging to the public; recognizing 
changing demographics of our society, including dealing with 
pool safety and drowning risks; support rulemaking on lead in 
children's metal jewelry, ATVs, upholstered furniture; continue 
to monitor effective compliance with----
    Mr. Rush. Your time has expired. Thank you very much.
    [The prepared statement of Mr. Locker follows:]

    [GRAPHIC] [TIFF OMITTED] T1686.049
    
    [GRAPHIC] [TIFF OMITTED] T1686.050
    
    [GRAPHIC] [TIFF OMITTED] T1686.051
    
    [GRAPHIC] [TIFF OMITTED] T1686.052
    
    [GRAPHIC] [TIFF OMITTED] T1686.053
    
    [GRAPHIC] [TIFF OMITTED] T1686.054
    
    [GRAPHIC] [TIFF OMITTED] T1686.055
    
    [GRAPHIC] [TIFF OMITTED] T1686.056
    
    [GRAPHIC] [TIFF OMITTED] T1686.057
    
    [GRAPHIC] [TIFF OMITTED] T1686.058
    
    Mr. Rush. The Chair now recognizes Dr. Marla Felcher. She 
is an adjunct lecturer at the Kennedy School of Technology at 
the Harvard University, and she is the author of a book, ``It 
Is No Accident How Corporations Sell Dangerous Baby's 
Products.''
    Welcome to the committee. You have 5 minutes, please.

 STATEMENT OF MARLA FELCHER, ADJUNCT LECTURER, PUBLIC POLICY, 
        KENNEDY SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY

    Ms. Felcher. Good morning. I guess I should say ``good 
afternoon'' by now. I would like to thank you for inviting me 
to participate in this important hearing. Most of all, I would 
like to thank you for even having this hearing.
    I have been working in this area, product safety, for over 
8 years, and for the first time I am hopeful that we are going 
to move beyond talking and finally act.
    I would like to start by making a few comments about how I 
got interested in this topic. I worked for most of my career in 
marketing for Gillette and Talbots, the retailer; as a 
marketing consultant for Nabisco, M&M, Mars, Ben & Jerry's, and 
other companies that make really good things to eat. And I also 
worked as a marketing professor at Northwestern University.
    I have an M.B.A. and I have a Ph.D. in marketing, yet the 
first time I ever heard about product recalls was when my 
friend's son Danny Keyser was killed by a recalled portable 
crib in 1998. Watching my friends bury their 16-month-old son, 
I vowed to learn how watching the child of two safety-vigilant 
University of Chicago professors could have been killed by a 
crib that had been recalled 5 years ago. This is how I learned 
about CPSC, and this is how I got involved in this work.
    I would like to spend what brief time I have today talking 
about what I believe are the two most insidious problems faced 
by the Agency.
    Number 1, companies that flout the Agency's hazard self-
report rule which is section 15(b) and section 6(b) censorship.
    I will start with a story that is true. I have changed the 
names of the victims. One October night in 1998, Shannon 
Campbell was awakened at 2 a.m. by the screams of her children, 
13-year-old Sarah and 10-year-old Max. Shannon jumped out of 
bed, opened her bedroom door, and ran into a thick wall of 
black smoke. In a desperate attempt to flush the house with 
fresh air, she ran back into her bedroom and opened a second 
story window. Then she jumped. Unable to stand after she broke 
her leg, the 31-year-old mother crawled on her hands and her 
knees to a neighbor's house. She banged on the front door and 
when no one answered, she kept going, crawling down the 
driveway into a cul-de-sac. She collapsed on her back and 
screamed until someone heard her and called the police. By the 
time the fire department arrived, plumes of smoke were spewing 
from the house's windows. The firefighters crashed through the 
locked front door and made their way to her children's 
bedrooms. There they found Max lying on his back in bed, 
entangled in the bedding. Sarah was on the bed with her 
brother, curled into a fetal position. Both children were dead. 
A family dog lay at the foot of the bed, also dead. Shannon's 
husband Jack was out of the country at the time on a U.S. 
military mission. When he returned home, his children were dead 
his wife was in the hospital. His home had been destroyed. A 
few days later a fire department investigator told Jack that 
the fire had been caused by the family's 3-year-old big screen 
television. Engineers working for the company had discovered a 
design flaw in the TV, a flaw that created the potential for 
the sets to burn, 6 months before Max and Sarah were killed. 
But there was no way the parents could have known this.
    The morning after the fire, the TV manufacturer safety 
officer flew to Washington to meet with CPSC about a recall. 
The safety officer, however, did not even know about the fire 
that had occurred the night before. What had prompted the trip 
was a call he had received from a North Carolina grandmother 
who had seen her TV go up in flames while she was babysitting 
for her granddaughter. The grandmother's complaint had not been 
the first. Reports of burning televisions had been landing on 
this safety officer's desk for years. Dozens of similar sets 
had smoked or ``charred'' which is the word the company prefers 
to use, or burst into flames.
    Sears, Allstate Insurance, Rent a Center, and multiple 
homeowners have filed claims with the company. Two TVs have 
even caught fire on retailers' showroom floors.
    Now, I have worked in marketing for most of my life and I 
can tell you, that is not a good sales strategy. Section 16(b) 
of the Consumer Product Safety Act required the safety officer 
to notify CPSC within 24 hours of learning of a product defect 
that posed a substantial hazard or created an unreasonable risk 
of injury or death.
    The documents that I have uncovered suggest that he flouted 
this rule. The manufacturer agreed to recall the sets with 
CPSC, but it did not agree to publicize the recall. Instead, 
the safety officer promised CPSC staff he would mail safety 
notifications to everyone who owned the TV.
    It will come as no surprise that the safety notification 
did not reach all TV owners. They kept burning, and CPSC 
eventually learned about at least 45 more burning sets.
    In 2003, 5 years after Sarah and Max were killed, CPSC 
recalled the sets for a second time. This time CPSC and the 
manufacturer issued a press release. It read, I quote: No 
injuries have been reported.
    In 2004 I got a grant from the Fund for Investigative 
Journalism to report on this story. I filed a Freedom of 
Information Act request with CPSC asking for documents related 
to the recalled sets. What did I get back? Nothing. Request 
denied. And what happened when I called CPSC last year in 2006 
and asked the public affairs officer why the recalled press 
release said ``no injuries have been reported,'' a statement 
that officially denied that Sarah and Max had been killed? He 
told me to file a request for an answer. What happened when I 
did? Request denied. So was my appeal.
    So what I would like to leave you with today is the 
knowledge that for every Chicago Tribune story like the one on 
magnets that gets written, there are dozens, perhaps hundreds, 
that never get written. This is the legacy of section 6(b). 
Thank you.
    [The prepared statement of Maria Felcher follows:]

    [GRAPHIC] [TIFF OMITTED] T1686.059
    
    [GRAPHIC] [TIFF OMITTED] T1686.060
    
    [GRAPHIC] [TIFF OMITTED] T1686.061
    
    [GRAPHIC] [TIFF OMITTED] T1686.062
    
    Mr. Rush. The Chair recognizes Mr. James Thomas who is the 
president of ASTM International.

  STATEMENT OF JAMES A. THOMAS, PRESIDENT, ASTM INTERNATIONAL

    Mr. Thomas. Thank you, Mr. Chairman, members of the 
subcommittee. I appreciate the opportunity to be here.
    ASTM is an organization with a proud history of over 100 
years. It is an organization that provides a forum for 
energized and dedicated volunteers that represent Government, 
industry, academia, and consumers to work together to solve 
problems through voluntary standards. We are very fortunate to 
have, as very active members of the ASTM standards-writing 
committees in the consumer product area, talented experts from 
the Consumer Product Safety Commission as well as other Federal 
and State agencies who contribute to the development of these 
voluntary standards.
    The ASTM has over 140 different technical committees 
writing standards in a wide range of subject areas. One of 
those was actually organized approximately 32 years ago in 
direct response to the creation of the Consumer Product Safety 
Act. That is our committee F15, and over the years that 
committee has developed many standards, some of which have been 
mentioned here, and others are mentioned in my fully prepared 
statements.
    Many of our activities are initiated at the request of the 
Consumer Product Safety Commission. And, in fact, approximately 
90 percent of the work of our Consumer Product Committee is a 
direct result of the Consumer Product Safety Commission 
providing information and seeking the involvement of ASTM to 
develop voluntary standards to address a consumer issue.
    We have developed standards for playgrounds, standards to 
prevent strangulation by clothing, drawstrings, bunk beds, baby 
walker standards. We have developed standards to eliminate the 
toxicity of crayons and other art supplies. We have standards 
to enhance the fire safety of candle products and many more.
    We are currently working on CPSC requests to establish 
standards for powered scooters, above-ground inflatable 
portable pools, and infant bathtubs. And legislation currently 
referred to the House Energy and Commerce Committee, such as 
the Pool and Spa Safety Act and the Children's Gasoline 
Prevention Act, reference ASTM safety standards to achieve 
their goals of protecting children.
    In the area of toy safety, ASTM has a standard that has 
received a great deal of global recognition, which is our toy 
safety standard F963 that establishes safety requirements for 
toys intended for use by children under the age of 14. This 
ASTM standard protects children in countless ways as it relates 
to possible hazards that may not be easily recognized by 
consumers. But through the numerous tests and technical 
requirements of this document, many hazards are addressed 
before a toy reaches the shelves of a retailer. Like all of our 
ASTM standards, F963 is reviewed and revised, as necessary, to 
address newly identified hazards.
    Most recently, the ASTM toy safety standard was revised to 
address the incidents of magnet ingestion. And in order to 
address that and to provide information on how to address the 
manufacturer of the toy and the components and to the 
development of the warning statements that would be used on the 
products, that revision was approved and made available March 
15, 2007. And this may not sound quick. But in the voluntary 
standards world, the fact that it only took 9 months to 
complete a voluntary standardization process is something that 
we are very, very proud of.
    Consumer safety advocates, industry representatives, and 
CPSC staff recognized the urgency of the need, and they spent a 
great deal of time developing these standards. While the toy 
safety standard has been revised, our work on magnet ingestion 
may not yet be finished. Representatives of ASTM will be part 
of the Consumer Product Safety Commission Magnet Safety Forum 
in June, which may serve as a springboard for additional 
revisions or new standards activities.
    And in summary, I would just draw your attention to the 
outstanding work that is being done by volunteer members from 
125 countries from around the world to develop the standards 
that are making a contribution to improve quality of life and 
safety for consumers and all mankind around the world. And I 
appreciate the opportunity to be here today.
    [The prepared statement of Mr. Thomas follows:]

    [GRAPHIC] [TIFF OMITTED] T1686.063
    
    [GRAPHIC] [TIFF OMITTED] T1686.064
    
    [GRAPHIC] [TIFF OMITTED] T1686.065
    
    [GRAPHIC] [TIFF OMITTED] T1686.066
    
    [GRAPHIC] [TIFF OMITTED] T1686.067
    
    [GRAPHIC] [TIFF OMITTED] T1686.068
    
    [GRAPHIC] [TIFF OMITTED] T1686.069
    
    [GRAPHIC] [TIFF OMITTED] T1686.070
    
    [GRAPHIC] [TIFF OMITTED] T1686.071
    
    [GRAPHIC] [TIFF OMITTED] T1686.072
    
    [GRAPHIC] [TIFF OMITTED] T1686.073
    
    Mr. Rush. I want to thank you so very much.
    Mr. Rush. Our final witness is Ms. Nancy Cowles. She is the 
executive director of Kids in Danger, a Chicago organization. 
It is a not-for-profit organization dedicated to protecting 
children by improving children's product safety.
    I want to welcome you, one Chicagoan to another Chicagoan.
    Ms. Cowles. Yes. Several are here today.
    Mr. Rush. Yes. Congresswoman Schakowsky also represents 
Chicago. Welcome to the committee.

 STATEMENT OF NANCY COWLES, EXECUTIVE DIRECTOR, KIDS IN DANGER

    Ms. Cowles. Thank you so much for letting us present our 
views on children's product safety here today. As you 
mentioned, we are dedicated to protecting children from unsafe 
products. We were founded in 1998 after the death of Danny in a 
very poorly designed, inadequately tested, and feebly recalled 
product. It was recalled 5 years before his death.
    Our mission is to promote the development of safer 
children's products, advocate for children, and educate the 
general public about children's product safety. We work with 
States to implement the Children's Product Safety Act which 
prohibits the sale or lease of recalled dangerous children's 
products or their use in child care. We provide educational 
materials to health care professionals, parents, and caregivers 
to alert them to the dangers facing children, and we are also 
working with engineering programs to increase the knowledge of 
safety standards that tomorrow's designers will bring to 
children's products.
    We are doing all we can to protect children, and we are 
here today to talk to you about what we believe Congress and 
the CPSC can better do to protect children. Congresswoman 
Schakowsky mentioned an Illinois poll that was taken in 1999 
that showed that the overwhelming number of parents and other 
people believe that children's products are tested for safety 
before they are sold and that the Government oversees that 
testing. Both statements are not true. To one, the parents, 
caregivers, and health care professionals believe if they buy a 
stroller, high chair, baby swing or playpen, someone, 
somewhere, has made sure that that product is safe. They are 
shocked to learn that the U.S. has no law requiring safety 
testing before a product is sold, and that the Government only 
takes action after a product is manufactured, sold, and proven 
to be unsafe, a very backwards approach in most people's eyes.
    Marla Felcher and I are both involved in product safety 
because of the same child. Danny Keysar died in 1998 when the 
portable crib he napped in at child care collapsed around his 
neck. While the first death in a Playskool Travel Lite portable 
crib like the one that killed Danny was in July 1991, just 
months after it went onto the market, the final product with 
that same design, the Evenflo Happy Camper, was not recalled 
until 1998, after the third child had died in that particular 
product; 16 children in all died in cribs of the same design.
    And another portable crib player with a different latching 
mechanism wasn't recalled until 2001, after a child died in it, 
despite earlier breakage reports that could point to what was 
about to happen to that child.
    And now we hear new reports of similar lackluster responses 
to new hazards, and we are very troubled. We learned of Kenny 
Sweet's death from ingested magnets from the Magnetix toy in 
December 2005. We immediately covered it in our monthly e-mail 
alert to parents and caregivers, and in January asked ASTM 
International to put it on the agenda of the February meeting.
    In June, at the following meeting, they did establish the 
task group that led to the new voluntary standard that Mr. 
Thomas had mentioned. That standard requires that toys with 
magnets that are small enough to be swallowed need to be 
labeled that they have those magnets in them and what the 
danger is, and that the toys need to be tested so that if the 
magnet falls out, they can't sell that product. Because that is 
what happened with Magnetix. They were selling a product that 
was basically faulty, the magnets were falling out. However, 
the standard still allows magnetic toys with larger components 
to be sold without the warning about magnets and still allows 
toys with loose magnets, small enough to swallowed, to be sold.
    In my opinion, no toy that contains small magnets, 
accessible or not, should be sold without the warning for the 
parents. And CPSC needs to look at the danger of these very 
small, powerful magnets to see if they need to be banned in 
children's products.
    Also in the news, baby bibs, lunch boxes, jewelry, 
flashlights, all children's products containing lead. As of 
last Friday, CPSC has recalled 19 lead-tainted products just 
this year, surpassing last year's 17 recalls.
    In the best-case scenario, parents have tossed these 
products and they are now in our landfills, potentially, I 
suppose, getting into our groundwater. In the worst-case 
scenario, and more likely, they are still being used and worn 
by children in thousands of homes across America.
    Ask yourself, would anyone in their right mind knowingly 
hang a neurotoxin around their child's neck and repeatedly 
scrape food off of it? Of course not. And yet while Illinois, 
which has a strong lead safety law and a children's product 
safety act, forced Wal-Mart to recall this lead-tainted bill, 
CPSC could only offer a weak suggestion to throw away torn 
bibs.
    Again, there is no requirement that children's products be 
tested for safety before they are sold and no provisions for 
CPSC to monitor testing of children's products. Instead we rely 
on the voluntary industry standards that we have heard about 
here today set by the very manufacturers that are subject to 
their provisions.
    I have been on the Standards Setting Committee since 2001. 
In a room full of 40 to 50 people, two to three of us at most 
represent consumer organizations. The vast majority of members 
are manufacturers. The system doesn't work fast, it doesn't 
work well, and it isn't complete. New product types, new 
hazards, and even age-old problems such as hardware failures on 
cribs are slow to be addressed and even slower to be remedied. 
Most committee members seem to be well-intentioned, but some do 
seem only to obstruct the process and slow it down. And even 
where there are mandatory standards as for full-sized cribs, 
there is no requirement to certify that it met the standard 
before it is sold. So we would urge CPSC to do more in terms of 
recalls, in terms of mandatory testing, in terms of making sure 
that our products are safe. Thank you.
    Mr. Rush. Thank you very much.
    [The prepared statement of Ms. Cowles follows:]

    [GRAPHIC] [TIFF OMITTED] T1686.074
    
    [GRAPHIC] [TIFF OMITTED] T1686.075
    
    [GRAPHIC] [TIFF OMITTED] T1686.076
    
    [GRAPHIC] [TIFF OMITTED] T1686.077
    
    [GRAPHIC] [TIFF OMITTED] T1686.078
    
    [GRAPHIC] [TIFF OMITTED] T1686.079
    
    [GRAPHIC] [TIFF OMITTED] T1686.080
    
    [GRAPHIC] [TIFF OMITTED] T1686.081
    
    [GRAPHIC] [TIFF OMITTED] T1686.082
    
    Mr. Rush. The Chair recognizes himself for 5 minutes of 
questioning.
    Dr. Felcher, in your opinion, what is the absolute worst 
constraint on the CPSC? And if you could change one feature of 
the way that it operates, let's say if it contains one or two 
features of the way it operates, what would it be?
    Ms. Felcher. The top one by far is 6(b). I would rescind 
section 6(b) of the Consumer Product Safety Act. I mean, 
without the information getting out there, which is what 6(b) 
is doing, there is no way that the public can know about these 
risks.
     I have spent the last 8\1/2\ years of my career devoted to 
this, and I don't know, I would say, 99.9 percent about what 
goes on in terms of which products are unsafe. There is just no 
way to know.
    Mr. Rush. How does 6(b) function? Can you explain how it is 
supposed to function?
    Ms. Felcher. I am not a lawyer but I will give you my 
interpretation and I will let you know how it has affected me 
in the work I have done.
    Basically, I think someone mentioned earlier, the first 
panel, about the press releases, the recalled press releases, 
and I am sorry the acting--Chairman Nord isn't here to continue 
this discussion. But it is my understanding, and I have seen 
many, many internal documents from CPSC that every word of a 
recalled press release is hashed out and negotiated between the 
manufacturer and the CPSC. I would like to believe that the 
CPSC has all of the power in the system and I would like to 
believe, as the Acting Chairman suggested, that what CPSC 
wants--which is to have a very strongly worded recall press 
release that really gets the point across that people should 
stop using these products--is what occurs. But from what I have 
seen, that does not occur. These press releases too often are--
it is watered down language. There is no other way to describe 
that. I have seen some of these documents that--these internal 
documents that I have managed to get when Chairman Ann Brown 
was running CPSC. You see the industry has literally crossed 
out the language that CPSC wants to use. And I can share some 
of those documents with you.
    So I think that that is No. 1. It is basically secrecy. As 
I mentioned before, I was a marketing professor when I got into 
this. I knew nothing about--and I am not proud to say this--but 
I knew nothing about regulation. The first request that I made 
with CPSC that was fulfilled--boxes and boxes of information 
showed up at my house, it might not be a surprise to you who 
are in this work, but there were these memos about dangerous 
baby products, there were pictures of dead children that wound 
up in my house, and the incident reports describing how those 
children were killed had thick swatches of black magic marker 
through them so I could not tell which manufacturer made that 
product. And I, as a product safety reporter at that point, 
could not warn parents about the danger. So 6(b) I think is the 
biggest problem that I would like to see fixed.
    Mr. Rush. Thank you very much.
    Mr. Korn, the cap on civil damages that the CPSC can impose 
for violations is right now currently at $1.83 million. In your 
opinion is this adequate? Or is that an amount that 
manufacturers easily can write off as a, quote, cost of doing 
business, end of quote?
    Mr. Korn. Yes. I believe the cap should be increased and I 
will tell you why, Mr. Chairman. Let's say that a manufacturer 
has got $50 million worth of product in the marketplace and has 
a problem with that product, an unreasonable hazard, it catches 
on fire, spontaneous combustion, you can make up your own 
hazardous risk. There are plenty of examples. I believe that 
the small cap adds an extra factor in their decision as to 
whether or not to follow the rules of the Consumer Product 
Safety Commission. And that is, if they know they only have 
$1.85 at stake, they may add the economic concern instead of 
the safety concern in their factor as to whether or not to 
follow the rules of the CPSA, the Consumer Product Safety Act.
    So we would prefer to have some higher cap so it is more of 
an economic hit, so to speak, to promote good behavior. We do 
believe that it does not have to be the same cap for every 
company. Bigger companies can have bigger caps, smaller 
companies can have smaller caps. Or section 19 that lists the 
prohibitive act that triggers a civil damage charge, some of 
them are more egregious than others in my view. Maybe those 
that are more egregious have the higher caps, those with the 
lower caps. So certainly the flexibility to increase that; $1.8 
5is not enough in our view.
    Mr. Rush. Thank you very much.
    The Chair recognizes the ranking member, Mr. Stearns, for 5 
minutes.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Locker, I just was talking to the staff and we were 
trying to figure out--we have heard the example of these toys. 
But isn't it true that most injuries involving toys are not 
necessarily caused by toys? If I can repeat that, is it true 
that most injuries involving toys are not necessarily caused by 
toys?
    Mr. Locker. I think that what you are talking about is that 
toy-associated or -related injuries are different from toys 
causing the injury.
    Mr. Stearns. If you could just explain that.
    Mr. Locker. Sure. Fifteen percent of the injuries occur 
when people trip over toys on the steps, and those get reported 
into the database. Or many of the injuries might be extremely 
minor, and the CPSC data has determined that toys are among the 
safest products in the household, as they should be, and that 
most of the injuries involved when children--minor lacerations 
when kids hit each other with them. So those types of issues 
when they get reported, perhaps there is a disservice in terms 
of the accuracy of the information. It should really be toy 
``caused'' injuries that can be directly related to the toy 
product as opposed to the general term ``related.''
    Mr. Stearns. So I guess what happens is doctors or 
emergency rooms report this to the CPSC? If a child or parent 
steps on a toy and falls, how does that work that the CPSC 
would get a----
    Mr. Locker. Well, actually, the CPSC is a remarkable array 
of sources of information. There is the Internet now which is 
the Web. There is the National Emergency Room Injury 
Surveillance System, which gets reports from participating 
hospitals. There are consumers. And then, of course, there are 
the manufacturers who are under the section 15 obligation to 
report data as well.
    And that all gets compiled and then it is actually an 
extrapolation, it is really an estimate of injuries. If it 
involves a toy, if the toy is in the vicinity and somehow it is 
alleged that it somehow be involved or is nearby, it gets 
reported as a toy-related injury.
    Mr. Stearns. Mr. Thomas, can industry and consumer 
advocates reach consensus on rulemaking? And can they perhaps 
do it as fast, if not faster, than the CPSC? And I guess, 
obviously, the value in this is the speed at which there is 
potential for an unsafe product that is taken off the market.
    Mr. Thomas. First thing is that ASTM, we are not part of 
rulemaking. It is a process of building a voluntary standard, 
and essentially the process benefits from a very very broad 
cross-section of stakeholders in that process. So you have the 
manufacturers, you have the Government representation, you have 
consumers, you have academics that are part of that process. 
That process can move very quickly when there is consensus 
around the issues, and there can be resolution of some of the 
complex technical issues that have to be addressed during the 
standards development process.
    Like on the magnet, although it may not have reached the 
point where it is completely satisfactory to all, there is a 
revision that was processed in 9 months that attempted to 
address the issue that was brought to the committee, and we 
believe that that is a very, very quick way of addressing 
problems as they are surfaced.
    I would wonder how rapidly a regulatory solution could have 
been reached in order to address what essentially was a real 
problem in the marketplace.
    So we are fairly proud of the fact that we are able to 
respond in a timely fashion to the changing dynamics of the 
marketplace, to the changing way in which products are used, 
and the way in which new products are introduced. So it is a 
process that can be very responsive. And can there be 
improvements in the future? Absolutely.
    Mr. Stearns. Mr. Korn, whenever I come to these hearings, I 
ask questions. I always want to know, is there a better mouse 
trap somewhere else? And I guess the question for you is, do 
you think our standard or standards in the United States are 
the best in the world? If not, what other countries have a more 
effective system, and should we adopt that?
    Maybe you could elaborate on those countries that perhaps 
employ a voluntary standard in a manner that is similar to 
ours, or improved, and then we could benefit from their 
efforts.
    Mr. Korn. Congressman, I have participated in the voluntary 
standards process, and on several occasions I have seen it 
work. I have seen good consensus, good balance on the 
committee, the Standards Committee; everyone with a good 
exchange of ideas; one that was referenced earlier as one that 
is about to come out on portable pools that I think is very 
good.
    In other cases, I have seen the voluntary standards process 
or the makeup of the committee work against the development of 
a good standard that makes a product safer. And this is how it 
usually happens. I will be sitting in a room with 35 people who 
make coffee mugs, and there will be 28 coffee mug manufacturers 
in the room, and three or four people of other interests. So 
when a standard comes to the vote, the vote, not surprisingly, 
is 26 to 4, or we don't get our opinions--or our motivations 
are not included in the standard.
    I do not know, Congressman, as much about the international 
standards. I am also certain we can learn something from our 
countries in how to do things better. History tells us that. I 
don't know enough to speak intelligently on it. I don't like to 
pretend to know things I don't. So I would defer to some of my 
other colleagues on the panel.
    Mr. Rush. The gentleman's time is expired. The Chair 
recognizes the gentlelady from Chicago. Ms. Schakowsky, is 
recognized for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman. I am actually not 
that interested in whether or not standards in other places--
except to the extent that we may be able to learn from them. 
But I think that it is relevant to say that we can do better.
    Mr. Thomas, why is it that when Kids in Danger approached 
you, your organization, and tried to get the Magnetix on the 
February agenda it took until June to get on the agenda?
    Mr. Thomas. I don't know.
    Ms. Schakowsky. We are talking about timing here. And we 
are talking about--am I right, Ms. Cowles?
    Ms. Cowles. It was actually on the February agenda, only 
that no action was taken at that time. And we had decided to 
get more information from the Consumer Product Safety 
Commission, which, I assume, arrived sometime before June, but 
it was not distributed to the group at the June meeting. So, 
really, when we say it took 9 months from June, in fact it 
could have started in February, and been done sooner had we hit 
the ground running, appointed a task group that day.
     It was almost a year, almost a year and a half since 
Kenny's death.
    Ms. Schakowsky. I notice that six times as many durable 
products are responsible for even six times as many deaths as 
toys. My legislation would require pretesting of those durable 
products.
    Let me first ask Mr. Thomas. These appear, really, in every 
household when a new baby is born or where you have a toddler. 
There is rarely a household without a stroller and a high chair 
and a crib, or maybe a smaller crib. And there is the 
assumption that someone, somewhere, as Ms. Cowles said, has 
decided that this is safe, and yet the products are tested but 
they are tested on our kids.
    What would be the objection, if there is one, of having 
these durable products actually repretested and have a stamp of 
approval, so that we know when they go on the shelf that they 
are safe?
    Mr. Thomas. We at ASTM would have absolutely no objection 
to that, because what we are doing is providing a standard that 
could serve as a basis for such certification or approval 
process. You will, in fact, find, I believe, that in the 
industry, the Juvenile Product Manufacturers Association has a 
hang tag certification program that if you go into a store to 
purchase, I think, high chairs, playpens, baby walkers, some 
other products, durable products as you are talking about, that 
there is an indication of a certification that is being made by 
the manufacturer with a recognition by the Juvenile Product 
Manufacturers Association that that product has in fact been 
tested. They are making a self-declaration based on the 
certification from JPMA that the product meets the safety 
standards that were produced.
    Ms. Schakowsky. Let me hear Ms. Cowles' comments on that 
process.
    Ms. Cowles. That is true. There is a JPMA process; however, 
it is not required. Many manufacturers do test to it. Some do 
not. Some products, in fact, that may have been safe, say they 
meet the higher European standard for cribs or the Canadian 
standard that includes a different test----
    Ms. Schakowsky. Actually, some other countries do have 
higher safety standards.
    Ms. Cowles. They have different tests, especially on the 
crib standard, that we believe would more adequately address 
the hardware failure, which is where a lot of deaths come in 
cribs. And so there is a JPMA program, but there is nothing to 
say that a product with a JPMA certification is any safer than 
one without it at this point. What we would like to see is 
something that the CPSC monitors, such as your bill provides 
for, so there is like a UL label that has to be there before it 
could be sold.
    Ms. Schakowsky. I am very concerned Dr. Felcher, about the 
FOIA requests, Freedom of Information Act. You are saying that 
you have never gotten a response to those requests?
    Ms. Felcher. No, I haven't. And I haven't gotten a 
response, basically, to any requests that I've made over the 
last couple of years. I have had to go to other sources to get 
the material that I am using to write a book on product safety.
    Ms. Schakowsky. We are going to look into that. Is there 
any sort of request that was denied?
    Ms. Felcher. Exemptions--I can show you the letters I have 
gotten, but I can tell you that the most troublesome denial 
that I got had to do with the denial that those two children 
had been killed, and I have thousands of pages of documents 
that say----
    Ms. Schakowsky. Let me get one more question for Ms. 
Weintraub. First of all, I thank you for supporting the 
legislation I have introduced. But I wondered if you could give 
us your priorities in terms of what CPSC needs to do to improve 
its activity.
    Ms. Weintraub. Thank you for your leadership on these very 
important issues. In terms of priorities our No. 1 request 
would be that CPSC be appropriated more funds. Almost every 
single problem, among other things, can be linked to the fact 
that CPSC is working with diminished resources at every single 
level. It is really a tragedy, the way in which our country has 
been prioritizing protecting children and all consumers from 
unsafe products, and they prioritize us in terms of funding the 
Agency to such low levels that they have to shed staff and shed 
experienced staff.
    CPSC, it has been said, does not have a very deep bench. 
And a lot of the staff they have been losing through attrition, 
and these are staff that have been at the Agency, some of them 
from the inception of the Agency, and they have knowledge that 
no one else in the country has. And it is a loss. It is a loss 
for children especially.
    Other priorities are to do what we are doing today, 
increase oversight of the Commission. I think that through 
sunshine, shedding the light in, we cannot only highlight 
problems but find solutions. We also have a number of 
recommendations for CPSC statutes. We also believe that the cap 
on civil penalties is absurd. That cap should be lifted, $1.85 
million.
    Ms. Schakowsky. Just lift it.
    Ms. Weintraub. We believe, yes, that ideally there should 
not be a cap. We would agree to reasonable caps. For example, 
the Senate actually passed a cap that unfortunately the House 
didn't act on, a cap of $21 million, a number of years ago. And 
we would support that provision.
    There are other issues in terms of reporting under 15(b). 
There was a guidance issued this summer that we are concerned 
will provide a safe harbor for manufacturers, retailers, and 
importers not to report incidences that they know of. We have 
concerns with section 7(b) in terms of reliance upon voluntary 
standards, acting as a shield for stronger CPSC action. We have 
concerns about 6(b) amusement parks among others, toys sold on 
the Internet.
    Mr. Rush. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Texas, Mr. Burgess, 
for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman. I just want to get on 
the record, your Ph.D. Is from Northwestern but your M.B.A. is 
from where?
    Ms. Felcher. University of Texas, hook them horns.
    Mr. Burgess. Now we can continue.
    On the question about the crib, when you started your 
testimony you talked about the deaths that occurred as a result 
of the cribs in 1998. You said the product was recalled 5 years 
earlier. What is the problem there? Is it these registration 
cards that consumers don't fill out? I am as bad as experts 
about filling out the warranty cards. I never do it.
    Ms. Felcher. You should.
    Mr. Burgess. What is the problem?
    Ms. Felcher. The problem is lack of overall awareness. The 
problem is CPSC is not doing, and still is not doing, enough to 
get the word out. The problem is with the recall press releases 
that are not worded strongly enough so that parents know they 
should act. And at the time, the problem was that this 
information was not even going to child care providers--which I 
think through the efforts of Kids in Danger, that has been 
changed.
    Mr. Burgess. I am just drawing from my own experience. I 
know when my children were very young in the 1970's, getting 
information about a type of crib that had some sort of finial 
on the top where a baby could get entrapped, and that 
information was disseminated. Has there been a change in how 
things have been handled?
    Ms. Felcher. I am not sure what was going on. What year did 
you say that was?
    Mr. Burgess. In the 1970's.
    Ms. Felcher. I can tell you it has been happening since 
1998. And I can tell you that 80 percent of--let me flip that. 
Recalls are not effective. Recalls of children's products are 
not effective, for a variety of reasons, which I am happy to 
have a private discussion; 10 to 20 percent of recalled 
children's products wind up getting out of circulation.
    Mr. Burgess. If there is time, I want to get into that a 
little bit. Now, on the issue of a 6(b), that provision, was 
that part of the original consumer product safety law in 1972, 
or has that been added?
    Ms. Felcher. My understanding is it has been strengthened 
considerably. It was strengthened considerably in the early 
1980's.
    Mr. Burgess. On the foreign manufacturer, say the People's 
Republic of China, that makes something that is unsafe, cannot 
our Customs service interdict that product before it comes into 
this country?
    Ms. Felcher. You are outside of my area of expertise. But I 
will say, though, that----
    Mr. Burgess. But the Customs Service would have to comply 
with 6(b)?
    Ms. Felcher. I don't know anything about the Customs 
service, I am sorry.
    Mr. Burgess. Mr. Thomas, if I could ask you, throughout my 
life I have just always relied on things to have the Seal of 
Good Housekeeping, and someone already referenced the 
Underwriters Laboratory Seal. Is that what ASTM provides?
    Mr. Thomas. No, we don't. We don't provide any 
certification program. We developed a standard, and the 
standard is applied by various industry groups, Government--
about 1,000 ASTM standards are referenced in Federal 
regulations.
    Mr. Burgess. Where does your funding come from?
    Mr. Thomas. Through primarily distribution of technical 
information all around the world.
    Mr. Burgess. Of course this committee, not this 
subcommittee but the full committee, has jurisdiction over the 
Food and Drug Administration. I think we already heard 
reference that--well, the Food and Drug Administration is 
allegedly proactive. Something has to be approved and deemed to 
be safe and effective.
    For the consumer safety products, it has to be after the 
fact. It is a reactive organization after a problem is 
discovered. And I gather that is the source of some of the 
tension.
    In a perfect world, would it ever be possible for, say, 
these little magnets to have to be certified ahead of time 
before they come onto the market? Is that even doable? Is that 
even feasible?
    Mr. Thomas. I don't see why it would not be. It is the same 
kind of issue that FDA is looking to address. They are 
essentially dealing with premarket testing and access. I would 
imagine that if the laws were written in that way and there was 
a regulatory program for implementation, that, sure, probably 
anything is possible. We do standards in the areas of FDA, the 
standards are referenced by FDA----
    Mr. Burgess. Excuse me for interrupting, I am running out 
of time.
    Even if it were voluntary, if some organization was able to 
put its mark on the product that this has been tested and 
deemed safe by again whoever. Now, in the FDA hearings we are 
talking, of course, about things like the prescription drug 
user fee assessment and medical device user fee assessment. 
These are funds paid by the industry to facilitate the testing 
of their products that come through the FDA.
    Has anyone ever given any thought to that occurring with 
the Consumer Product Safety Commission?
    Mr. Thomas. I have no idea.
    Mr. Burgess. Mr. Chairman, my last 3 seconds as a public 
service. These are the little magnets, and they really are a 
lot of fun. You have seen me playing with them, but apparently 
they have improved them and the edge is crimped so the magnet 
will not come out. That is a good improvement. But even the toy 
itself strikes me as being inherently dangerous for children 
who are apt to put things in their mouth.
    The other thing is these magnets are significantly strong, 
and the reason I bring this up is a group of realtors who met 
me outside said, oh, yes, we have these new pins that have the 
same kind of magnets in them. These things are becoming 
ubiquitous. And, again, I am concerned that health care 
providers, emergency room personnel, doctors and nurses are not 
aware of the problem that can be encountered. This thing is not 
strong enough to go through my full finger, but I can 
understand how the magnetic attraction could cross through the 
wall of the small intestine, particularly of a child, and the 
result could be catastrophic, even worse than a gunshot injury, 
because there is no external evidence that you have a problem 
of that catastrophic nature going on inside.
    Thank you for that indulgence, Mr. Chairman. I will yield 
back and I will give these back to their rightful owner.
    Mr. Rush. Thank you.
    The Chair now recognizes Mr. Fossella for 5 minutes.
    Mr. Fossella. Thank you, Mr. Chairman. Thank you and the 
panel for your time.
    And I think we all support the noble goal of ensuring that 
no child suffers, as too many have, and I guess in large 
measure we constantly grapple with what is the appropriate role 
of government--State and local and the Federal level--court 
system, public awareness and education, personal 
responsibility?
    Personally, I do feel that there is a significant role of 
government at least to bring attention and punish those who put 
into the stream of commerce things that can lead to damage of 
young children.
    Question for Ms. Weintraub and Mr. Korn. First, with 
respect to furniture tipovers. In your opinion, have things 
progressed over the last several years--we have had children, I 
know, in Staten Island who have died as a result of pulling 
entertainment centers and whatnot back and, regrettably, losing 
their life.
    While there is legislation before us, is the industry 
moving aggressively enough, whether it is through the anti-tip 
brackets, and are there better companies out there than others 
that we should bring attention to, short of legislation, 
assuming legislation is not passed?
    Ms. Weintraub. I think it is a complicated question but 
ASTM has been moving--ASTM, which is the organization which Mr. 
Thomas represents, is the voluntary standard setting 
organization. And within ASTM there is currently a committee 
that has been working on setting standards for furniture 
tipovers. It has been an incredibly arduous task, though it 
seems that something strong and adequate will be coming out of 
that subcommittee. So that is progress.
    However, in terms of furniture tipping over, there are sad 
stories, just what occurred in Staten Island, that occurred 
throughout the country. And not only is it furniture, it is 
also appliances such stoves. Horrendous stories where children 
and the elderly get trapped and burned when the stoves tip 
over.
    Unfortunately, requiring brackets alone is not at all 
sufficient. In terms of stoves, in terms of some information 
that we have learned about, brackets are supposed to be 
installed in stoves upon delivery. However, the vast majority 
of them, over 90 percent of them, have not been installed with 
these anti-tip brackets. Retailers don't always do that. 
Sometimes they may leave them for consumers. Sometimes they may 
not. Consumers often have no idea whether the stove either 
meets a standard that doesn't require the brackets or should be 
connected to the wall through a bracket, and is not. So it is 
still an incredibly problematic, pervasive, and hidden hazard.
    Mr. Fossella. I have less than 2 minutes left. I would like 
to follow up, but let me shift gears to the issue of pools and 
spas.
    And for Mr. Korn and Ms. Weintraub, I notice in your 
testimony, Ms. Weintraub, the notion that a young child could 
die in a drowning, and it could be prevented. Obviously we 
should do everything we can to prevent it.
    I notice, Ms. Weintraub, in your testimony you say you 
support legislation regarding tipovers, yet you say you support 
the goals of the legislation for the Pool and Spa Safety act.
    And if I heard you correctly Mr. Korn, you are satisfied 
with the most recent efforts on safety of pools and spas or did 
I mishear you? And I guess the question is, again, is the 
private sector moving fast enough and what would this 
legislation do? I have supported this legislation in the past. 
I am just curious if anything is involved.
    And what is the nuance or the difference between supporting 
the legislation and supporting the goals of the legislation?
    Mr. Korn. We are wildly supportive of the Pool and Spa 
Safety Act. We think it is a nice practical approach that 
addresses both new pools as they come to the market, giving the 
CPSC the ability to craft a standard that addresses the dangers 
associated with these drains; and then, second, crafts a 
legislative scheme, for lack of a better word, that gets to 
address those existing pools in which the CPSC has no 
jurisdiction, no mandate, only incentivizing States to use some 
of these devices along with four-sided fencing, similar to 
legislation that is in New York, so that we would protect kids 
from that unfettered access.
    So if I was unclear, let me be very clear. We are very 
supportive of the Pool and Spa Safety Act. And thank you for 
your cosponsor of it.
    Mr. Fossella. What is the difference between supporting 
legislation and the goals?
    Ms. Weintraub. For us there is a distinction. CFA currently 
has not yet come to a final decision about where we are on the 
pool bill. As I said in my testimony, and as you very 
accurately assessed, there is a distinction for us, whether we 
are supporting the legislation or supporting the goals.
    Our hesitation has been, and our decision is not yet final, 
but our hesitation is whether the mechanical way that the bill 
goes about assuring that the very meaningful standards get 
implemented is the best way to go about it.
    As you know as a cosponsor, the bill goes about it through 
a grants program that would go through CPSC, and States that 
would pass and implement a very strong pool and spa safety bill 
would get money through CPSC.
    And what our concern about is whether this grant program 
through CPSC, who doesn't have experience, who has diminished 
resources, whether that program is the best way to go about it.
    Mr. Fossella. Thank you. And thank you, Mr. Chairman.
    Mr. Rush. Thank you.
    The committee has completed its testimony. I want to thank 
the witnesses. I really want to thank you for your patience, 
for your testimony, for your contributions on the problem. This 
is not the final hearing on the issue of children's product 
safety. We will have additional hearings. We will try to get 
some legislative remedies passed through this Congress so that 
our children will be safe in the future from products that are 
manufactured and that are sold to the American people.
    I want to indicate that the record will be open for 30 days 
to accept statements. And I would ask the witnesses to be 
prepared to answer further questions that may be submitted in 
writing by the members of this committee for this record.
    Thank you so very much and the committee now stands 
adjourned.
    [Whereupon, at 1:35 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T1686.083
    
    [GRAPHIC] [TIFF OMITTED] T1686.084
    
    [GRAPHIC] [TIFF OMITTED] T1686.085
    
    [GRAPHIC] [TIFF OMITTED] T1686.086
    
    [GRAPHIC] [TIFF OMITTED] T1686.087
    
    [GRAPHIC] [TIFF OMITTED] T1686.088
    
    [GRAPHIC] [TIFF OMITTED] T1686.089
    
    [GRAPHIC] [TIFF OMITTED] T1686.090
    
    [GRAPHIC] [TIFF OMITTED] T1686.091
    
    [GRAPHIC] [TIFF OMITTED] T1686.092
    
    [GRAPHIC] [TIFF OMITTED] T1686.093
    
    [GRAPHIC] [TIFF OMITTED] T1686.094
    
    [GRAPHIC] [TIFF OMITTED] T1686.095
    
    [GRAPHIC] [TIFF OMITTED] T1686.096
    
    [GRAPHIC] [TIFF OMITTED] T1686.097
    
    [GRAPHIC] [TIFF OMITTED] T1686.098
    
    [GRAPHIC] [TIFF OMITTED] T1686.099
    
    [GRAPHIC] [TIFF OMITTED] T1686.100
    
    [GRAPHIC] [TIFF OMITTED] T1686.101
    
    [GRAPHIC] [TIFF OMITTED] T1686.102
    
    [GRAPHIC] [TIFF OMITTED] T1686.103
    
    [GRAPHIC] [TIFF OMITTED] T1686.104
    
    [GRAPHIC] [TIFF OMITTED] T1686.105
    
    [GRAPHIC] [TIFF OMITTED] T1686.106
    
    [GRAPHIC] [TIFF OMITTED] T1686.107
    
    [GRAPHIC] [TIFF OMITTED] T1686.108
    
    [GRAPHIC] [TIFF OMITTED] T1686.109
    
    [GRAPHIC] [TIFF OMITTED] T1686.110
    
    [GRAPHIC] [TIFF OMITTED] T1686.111
    
    [GRAPHIC] [TIFF OMITTED] T1686.112
    
    [GRAPHIC] [TIFF OMITTED] T1686.113
    
    [GRAPHIC] [TIFF OMITTED] T1686.114
    
    [GRAPHIC] [TIFF OMITTED] T1686.115
    
    [GRAPHIC] [TIFF OMITTED] T1686.116
    
    [GRAPHIC] [TIFF OMITTED] T1686.117
    
    [GRAPHIC] [TIFF OMITTED] T1686.118
    
    [GRAPHIC] [TIFF OMITTED] T1686.119
    
    [GRAPHIC] [TIFF OMITTED] T1686.120
    
    [GRAPHIC] [TIFF OMITTED] T1686.121
    
    [GRAPHIC] [TIFF OMITTED] T1686.122
    
    [GRAPHIC] [TIFF OMITTED] T1686.123
    
    [GRAPHIC] [TIFF OMITTED] T1686.124
    
    [GRAPHIC] [TIFF OMITTED] T1686.125
    
    [GRAPHIC] [TIFF OMITTED] T1686.126
    
    [GRAPHIC] [TIFF OMITTED] T1686.127
    
    [GRAPHIC] [TIFF OMITTED] T1686.128
    
    [GRAPHIC] [TIFF OMITTED] T1686.129
    
    [GRAPHIC] [TIFF OMITTED] T1686.130
    
    [GRAPHIC] [TIFF OMITTED] T1686.131
    
    [GRAPHIC] [TIFF OMITTED] T1686.132
    
    [GRAPHIC] [TIFF OMITTED] T1686.133
    
    [GRAPHIC] [TIFF OMITTED] T1686.134
    
    [GRAPHIC] [TIFF OMITTED] T1686.135
    
    [GRAPHIC] [TIFF OMITTED] T1686.136
    
    [GRAPHIC] [TIFF OMITTED] T1686.137
    
    [GRAPHIC] [TIFF OMITTED] T1686.138
    
    [GRAPHIC] [TIFF OMITTED] T1686.139
    
    [GRAPHIC] [TIFF OMITTED] T1686.140
    
    [GRAPHIC] [TIFF OMITTED] T1686.141
    
    [GRAPHIC] [TIFF OMITTED] T1686.142
    
    [GRAPHIC] [TIFF OMITTED] T1686.143
    
    [GRAPHIC] [TIFF OMITTED] T1686.144
    
    [GRAPHIC] [TIFF OMITTED] T1686.145
    
    [GRAPHIC] [TIFF OMITTED] T1686.146
    
    [GRAPHIC] [TIFF OMITTED] T1686.147
    
    [GRAPHIC] [TIFF OMITTED] T1686.148
    
    [GRAPHIC] [TIFF OMITTED] T1686.149
    
    [GRAPHIC] [TIFF OMITTED] T1686.150
    
    [GRAPHIC] [TIFF OMITTED] T1686.151
    
    [GRAPHIC] [TIFF OMITTED] T1686.152
    
    [GRAPHIC] [TIFF OMITTED] T1686.153
    
    [GRAPHIC] [TIFF OMITTED] T1686.154
    
    [GRAPHIC] [TIFF OMITTED] T1686.155
    
    [GRAPHIC] [TIFF OMITTED] T1686.156
    
    [GRAPHIC] [TIFF OMITTED] T1686.157
    
    [GRAPHIC] [TIFF OMITTED] T1686.158
    
    [GRAPHIC] [TIFF OMITTED] T1686.159
    
    [GRAPHIC] [TIFF OMITTED] T1686.160
    
    [GRAPHIC] [TIFF OMITTED] T1686.161
    
    [GRAPHIC] [TIFF OMITTED] T1686.162
    
    [GRAPHIC] [TIFF OMITTED] T1686.163
    
    [GRAPHIC] [TIFF OMITTED] T1686.164
    
    [GRAPHIC] [TIFF OMITTED] T1686.165
    
    [GRAPHIC] [TIFF OMITTED] T1686.166
    
    [GRAPHIC] [TIFF OMITTED] T1686.167
    
    [GRAPHIC] [TIFF OMITTED] T1686.168
    
    [GRAPHIC] [TIFF OMITTED] T1686.169
    
    [GRAPHIC] [TIFF OMITTED] T1686.170
    
    [GRAPHIC] [TIFF OMITTED] T1686.171
    
    [GRAPHIC] [TIFF OMITTED] T1686.172
    
    [GRAPHIC] [TIFF OMITTED] T1686.173
    

</pre></body></html>
